<html>
<title> - AERIAL FIREFIGHTING SAFETY</title>
<body><pre>[Senate Hearing 108-29]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-29

                       AERIAL FIREFIGHTING SAFETY

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

TO RECEIVE TESTIMONY REGARDING THE ISSUES UNCOVERED AS A RESULT OF THE 
BLUE RIBBON PANEL'S FINDING ON AERIAL FIREFIGHTING SAFETY AND TO LEARN 
 WHAT THE AGENCIES ARE DOING TO RESPOND TO THE RECOMMENDATIONS OF THAT 
                                 REPORT

                               __________

                             MARCH 26, 2003


                       Printed for the use of the
               Committee on Energy and Natural Resources



                                 ______

87-175              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                     James P. Beirne, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                  CONRAD BURNS, Montana, Vice Chairmaa

GORDON SMITH, Oregon                 RON WYDEN, Oregon
JON KYL, Arizona                     DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            EVAN BAYH, Indiana
                                     DIANNE FEINSTEIN, California

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Kera Finkler, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Broadwell, William R., Executive Director, Aerial Firefighters 
  Industry Association...........................................    13
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Hamilton, Larry, National Director, Office of Fire and Aviation, 
  National Interagency Fire Center, Bureau of Land Management, 
  accompanied by Dr. Tony Kern, Assistant Director of Aviation, 
  U.S. Forest Service............................................     8
Hull, Jim, State Forester and Director, Texas State Forest 
  Service; and Jim Hall, President, Hall and Associates..........     4
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................    23
Powers, Duane A., Director of Operations, Hawkins & Powers 
  Aviation, Inc., Greybull, WY...................................    17
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     3
Wyden, Hon. Ron, U.S. Senator from Oregon........................    25

 
                       AERIAL FIREFIGHTING SAFETY

                              ----------                              


                       WEDNESDAY, MARCH 26, 2003

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good morning everyone and welcome to the 
Public Lands and Forests Subcommittee's hearing on the Blue 
Ribbon Panel report on Federal aerial firefighting safety and 
effectiveness.
    I am pleased to be joined by my colleague, Senator Craig 
Thomas of Wyoming. Others of the committee should be joining us 
throughout the morning. I must tell you that yesterday, Senator 
Craig and I were talking about doing tag team so that we would 
get all of your testimony and not shut this subcommittee down 
because of the budget process on the floor at this moment, but 
we have been given a window of reprieve because we were good 
Senators yesterday and worked hard and got more work done than 
we had thought we might.
    I want to especially welcome the co-chairs of the Blue 
Ribbon Panel, James Hall, president of Hall and Associates and 
former Chairman of the National Transportation Safety Board, 
and James B. Hull, the State forester and director of the State 
of Texas Forest Service. Thank you for taking time to serve on 
the panel and for coming to testify. Gentlemen, thank you.
    I also want to welcome Larry Hamilton, BLM Director of 
Aviation at the National Interagency Fire Center in Boise, 
Idaho, and also Tony Kern, Assistant Director of Aviation for 
the U.S. Forest Service.
    Last but not least, I would also like to thank William 
Broadwell, executive director of Aerial Firefighting Industry 
Association, and Mr. Duane Powers, president of Hawkins and 
Powers Aviation, Incorporated from Greybull, Wyoming for 
attending today. Gentlemen, thank you for taking time out of 
your schedules to be with us.
    It is never easy to perform oversight on complex issues 
relating to the health and safety of people who perform 
incredibly difficult and dangerous tasks such as extinguishing 
forest fires and protecting ground firefighters with support 
from the air.
    I hope that we will all listen to the testimony offered 
today in a proactive rather than reactive manner. We need our 
agencies and their contractors to address these issues and to 
make the changes needed to reduce accidents now and in the 
future. We need to know that they understand the issues and 
have developed a strategy to improve the safety of these 
operations.
    While it is clear to me that many of the issues we face 
will not be resolved overnight, I want the wildland 
firefighting community and their families to know that this 
Senator will work to reduce the risks faced by these courageous 
people.
    I want to make a couple of observations that I fear could 
be lost if we only focus on the eight major findings in the 
report. This report documents an increased use of aerial 
firefighting over the last decade. Planes and crews are putting 
in nearly double the amount of hours over these fires than they 
were only a decade ago. The increase in aerial firefighting has 
caused dangerous wear and tear on the fleet of aircraft and on 
their crews. Like it or not, we will continue to be calling on 
planes, helicopters, and their crews to fly into remote rugged 
terrain in smoky and hazardous or hazy conditions under less 
than favorable turbulent weather conditions in order to assist 
firefighters to put these fires out.
    I do not want the agencies or the public to overlook the 
importance of reducing the hazardous fuels on our public lands 
before these fires start. When we have thinned our forests and 
have removed the hazardous fuels, fires are less intense. Our 
ground crews can be utilized to directly attack these fires and 
our aerial assets can be safely utilized to put these fires 
out.
    I think our aerial safety issue is rooted in the 
overstocked, insect-infested forests that we are now asking 
these people to work in. Until we address the hazardous fuels 
build-ups, we are fooling ourselves to think that new, fully 
certified retardant planes with the best trained crews possible 
can overcome the inherent dangers of aerial firefighting. It is 
our failure to demand timely fuel reduction that is putting our 
firefighters, our aerial firefighting crews, the public and our 
forests at needless risk.
    This is not to say that aircraft do not have to undergo a 
major revamping. I believe they do. I think the report argues 
that. But if we can reduce how often we have to rely on these 
planes and helicopters, we will reduce the wear and tear they 
sustain and reduce the amount of time we put these people in 
harm's way.
    At this point, I have an open mind as to what type of 
aircraft to use for these tasks and what the correct mix of 
fixed-wing and helicopter aircraft should be. I will rely on 
Federal wildland firefighting agencies and their contractors to 
work that out.
    I do want to know specifically what steps have been taken 
to address these issues listed in the report, including mission 
muddle, for this season.
    I do want to know what is being done to deal with the 
grounding of 11 heavy retardant planes and 11 lead planes.
    Most importantly, I hope I will see and understand that the 
only part of the fire triangle of oxygen, heat, and fuel that 
we can hope to influence is how much fuel is left in the 
forests. Until we address the hazardous fuels issue, we are 
fooling ourselves to think that newly, fully certified planes 
and the best trained crews are beyond danger.
    I encourage each of you to resist reading your testimony, 
to summarize your prepared remarks. Both your written and oral 
testimonies are a part of the record. Again, I thank you for 
being here.
    I would turn to my colleague, Craig Thomas, for any opening 
comments he would have.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I thank all of you for being here.
    As is often the case, we are looking at a problem here, one 
that needs to be resolved. We clearly are going to have fires. 
We clearly need to do something about them. I think we clearly 
have identified some problems and what we have to do is find 
some answers.
    Certainly there has been a great reliance on air tankers to 
do some of the things that have to be done, reliance on 
contractors. I hope we can continue to do that. This is an 
activity that could very well and should be done in the private 
sector, to the extent that it can be.
    We had, of course, a number of difficult accidents last 
year, and we need to do something about that.
    I am very pleased the Blue Ribbon Panel's report is here. I 
think we can focus a good deal on that because many of the 
solutions I think are there.
    Contractors rely on surplus military aircraft. I guess I am 
a little surprised that we have not done more. We have gone 
from 130As to 130Hs, and there must be some out there somewhere 
that are not being used very much. There is no reason for us to 
be using 40-year-old airplanes when there are some probably in 
Arizona that ought to be being used.
    But in any event, one of the problems obviously has been 
the number of agencies that have been involved in what appears 
to me at least to be a disconnect between the Forest Service 
and the BLM and the FAA in terms of doing the things that they 
do best. Even though they are in different bureaucracies, I 
cannot imagine why we cannot work it out to where you use the 
expertise from one agency when it is needed in one that does 
not have that kind of expertise. I believe that is partly where 
we are.
    The other, of course, is if we are going to continue and do 
have these older aircraft, there need to be standards for which 
they are required to maintain. And then the payment has to 
reflect the cost of some of those improvements that we do. It 
is my understanding in the way that these contracts are made 
that that is not always the case.
    So in any event, I think we have a great opportunity today 
to deal with the problem that all of us would like to resolve, 
and we appreciate your being here.
    Thank you, Mr. Chairman.
    Senator Craig. Craig, thank you very much.
    Now with our co-chairs, we will start alphabetically. How 
is that? And that is difficult, folks. We have got to go 
through the first name. We have got a middle initial there, but 
we usually then go to the last name. So we will start with 
James Hall. Jim, thank you very much for being here. As has 
been mentioned, Jim is president of Hall and Associates and 
former chairman of the National Transportation Safety Board. 
Please proceed.
    Mr. Hall. Mr. Chairman, with the permission of the chair 
and Senator Thomas, we have arranged our presentation for Jim 
Hull to go first, the State Forester of Texas. So if that would 
be okay, I will have him proceed. We have divided the report 
up.
    Senator Craig. Well, the chairman cannot say no.
    [Laughter.]
    Senator Craig. Mr. Hull, welcome. As I mentioned earlier, 
Jim is the State forester and director of the State of Texas 
Forest Service. And I did not know that the State of Texas had 
a Forest Service, but I do now.
    Jim, welcome.

STATEMENT OF JIM HULL, STATE FORESTER AND DIRECTOR, TEXAS STATE 
  FOREST SERVICE; AND JIM HALL, PRESIDENT, HALL AND ASSOCIATES

    Mr. Hull. Mr. Chairman, Senator Thomas, I am going to 
resist the opportunity to educate you on the forests of the 
great State of Texas.
    Senator Craig. I asked that question yesterday, and then I 
educated myself. Thank you.
    [Laughter.]
    Mr. Hull. But it is a real pleasure for co-chair Jim Hall 
and me to be here today to discuss the findings of this Blue 
Ribbon Panel with you. We will do that very briefly and just 
hit the high points.
    As you recall, following the tragic air tanker tragedies 
and fatalities last summer, the U.S. Forest Service and the BLM 
commissioned this blue ribbon task group to take a look at what 
was going on and identify the key information that could be 
valuable in developing information for the planning and the 
safe and effective future use of the aviation program. As a 
State forester that is a user of these aerial resources, I can 
tell you that aviation resources are vital to fire protection 
not only in the West, but across the entire United States.
    We were asked specifically to identify the weaknesses, the 
fail points that might be present in the current aviation 
program.
    We were also asked to focus on five basic areas: safety, 
operational effectiveness, cost, sustainability, and strategic 
guidance. We spent some 3 months crisscrossing the Nation, 
visiting with Federal and State employees, contractors, pilots, 
consultants, a number of interested citizens and wildland 
firefighters throughout the Nation.
    Very quickly, I will identify and briefly describe the 
first four of our findings and co-chair Hall will address the 
following four.
    First, the safety record of fixed-wing air tanker and 
helicopters is unacceptable as far as the management in the 
wildland fire arena. We found that contractor personnel flying 
these large air tankers are subject to lower safety standards 
than government personnel that are flying the lead planes and 
the smoke-jumper type aircraft.
    But what we also found was that both contractor and 
government aerial firefighting operations are being conducted 
at lower safety standards than we feel like can be justified, 
certainly less than any reasonable employer would expect of 
their employees.
    We found that the aircraft, none of them--or very few at 
any rate--have voice and data flight recorders to assist in 
monitoring stresses and then certainly follow-up should a 
tragedy occur.
    The second finding emphasizes the fact that nationwide the 
wildland firefighting is dealing with an environment that has 
changed and risks that are changed, new areas that we need to 
be involved with. As you described, Mr. Chair, so eloquently, 
we have this buildup of fuel throughout the Nation in our 
Nation's forests. We are also experiencing prolonged drought 
throughout most of the Nation that we have experienced 
personally in Texas and other States. And then we have this 
very rapidly expanding rural/urban/wildland interface situation 
with all of the population. And you put all of that together, 
it is bringing a new environment in which we must deal and 
respond to wildfires.
    However, what we are finding is that fire policy to address 
all of this is not evolving at a rate that is essential to 
address the situation.
    One of the statements we made in the report I want to read 
word for word because I think it is very important at this 
point. Possibly the single largest challenge now facing the 
leaders of these Federal agencies is to foster much greater 
cooperation and collaboration among working-level staffs, 
contractors, States, and certainly the Congress and the 
Administration to raise the standards of aerial wildland 
firefighting in the United States.
    The third finding deals with the aircraft themselves. The 
FAA has categorized these retired military aircraft used for 
firefighting as ``public use aircraft.'' And basically that 
says, you are on your own, and we found a lot of that. There 
are very few checks and balances in place to ensure that these 
aircraft are safe to fly.
    Further, we found that the current air tanker fleet is 
being operated outside of their original design intent with 
very little formal mechanisms in place to evaluate their 
capability to be used in this wildland firefighting 
environment. We feel like that under the current system of 
aircraft certification, contracting, and operation, the program 
as it is right now is simply unsustainable.
    The fourth finding you mentioned a while ago and I will 
mention it quickly, ``mission muddle.'' There is no single body 
in charge of aviation. Instead, there is a variety of missions, 
philosophies, unclear standards amongst the Federal land 
management agencies. As a result, the firefighting risks remain 
higher than necessary because of these mission differences, and 
so far they have not been recognized, reconciled, or expressed 
to the degree that they should.
    At that point I will ask co-chair Chairman Hall to 
continue.
    Mr. Hall. Mr. Chairman, Senator Thomas, it is a pleasure to 
be here before the committee.
    I would like to address the four final weaknesses, or fail 
points, that the Blue Ribbon Panel identified which are 
culture, certification, contracts, and training, and just a 
word on each one of those.
    The safety culture seemed to be either absent or, as in the 
case of the mission, muddled. We have, obviously, a number of 
agencies involved here, and the one common thing that we found 
across the agencies was probably insufficient contract funding 
in order to provide adequate knowledge of the aircraft 
condition, insufficient training, inspection, and maintenance, 
which has resulted, of course, in a deplorable safety record 
for the air tankers and a less than acceptable safety record 
for all the other aircraft.
    Senators, this reminds me a lot of while I was at the NTSB, 
U.S. Air had five major accidents which the board looked at 
very closely, and there had been a merger of several airlines 
and several cultures trying to co-exist together. You have to 
have a safety culture that is consistent, and I think we found 
this not just in the mission but obviously in the culture, the 
impact of so many different organizations trying to steer the 
direction.
    On the subject of certification, there seemed to have been 
a misunderstanding of the role of the Federal aviation 
aircraft. There was no certification of these aircraft for the 
mission that they were attempting to perform, and of course, 
with public use aircraft, there is no real air worthiness 
oversight by the Federal Aviation Administration. This puts the 
Forest Service in the untenable position of being both the 
contracting agency and the regulator which is a situation that, 
unfortunately, rarely works.
    In the area of contracting, which I think is an extremely 
important area, there seemed to be an emphasis on cost 
efficiency and an absence of contract provisions that 
emphasized safety results and required a demonstration of 
safety, no emphasis on judgment, experience, safety records, 
past performance, and obviously a lack of knowledge and 
awareness, it appears, in the contracting process of what is 
required for a safe aviation program.
    And finally, in the area of training, we found inadequate 
funding to provide the type of training that is required in 
crew stress and fatigue, in turbine engine operation and 
reporting processes and workload management and crew resource 
management in particular.
    We looked at several different options which are in the 
final report of things, although we were to look not at 
recommendations but strictly at fail points and omissions. We 
did see, in Canada and in the State of California with their 
operations, models that the committee members may want to have 
committee staff look at more deeply in terms of potential 
directions to go in this area.
    Finally, let me say on behalf of the co-chairman, the other 
panel members, that we were honored to have this assignment. We 
had the opportunity to have a full briefing with Dale Bosworth, 
the head of the Forest Service, and Kathleen Clark, the head of 
the Bureau of Land Management. Both Mr. Kern who is here this 
morning and Mr. Hamilton and all the staff and folks we met 
primarily on our travels throughout the Western States were 
most cooperative, and we hope that this work in some way will 
help the committee, as well as the agencies, in providing a new 
direction and a new safety standard in this aerial firefighting 
area.
    [The prepared statement of Mr. Hull and Mr. Hall follows:]

     Prepared Statement of Jim Hull, State Forester and Director, 
   Texas Forest Service; and Jim Hall, President, Hall and Associates

    Mr. Chairman and members of the Committee, we are pleased to be 
here to discuss findings of the Blue Ribbon Fact Finding Panel on the 
aviation programs of the Forest Service and Bureau of Land Management. 
I am Jim Hull, Texas State Forester and I served as co-chair of this 
Blue Ribbon Panel with Jim Hall, former chair of the National 
Transportation Board who will join me in this presentation. We 
represent the entire Panel that also included Mr. Ken Johnson of 
Canada, Dr. Earl McKinney of Ohio and Mr. Bill Scott of Colorado.
    Following the tragic air tanker fatalities of last summer, the 
Forest Service and Bureau of Land Management jointly established our 
independent commission to identify key information for planning the 
safe and effective future of the aviation program that is so essential 
for effective wildland firefighting across the nation. We were tasked 
to identify weaknesses and fail points in the current aviation program, 
focusing on safety, operational effectiveness, costs, sustainability, 
and strategic guidance. We spent three months gathering information 
from federal and state employees, contractors, pilots, consultants, 
interested citizens and firefighters. We issued our report to the Chief 
of the Forest Service and Director of the BLM in December 2002. The 
panel identified a wide variety of issues, and we will briefly 
summarize the eight principal findings.

  <bullet> Unacceptable Level of Safety--The safety record of fixed-
        wing aircraft and helicopters used in wildland fire management 
        is unacceptable. Contractor personnel flying large air tankers 
        are subject to a lower safety standard than government 
        personnel flying federally owned and operated lead planes and 
        smoke-jumper aircraft. The level of safety for both contractor 
        and governmental aerial firefighting operations is lower than 
        can be financially justified and is less than expected for any 
        responsible employer. The aircraft do not have voice and data 
        flight recorders to assist in accident investigation.
  <bullet> New Environment, New Risks--A considerable build-up of fuel 
        in the nation's forestlands, three-plus year's of severe 
        drought conditions and an expanding wildland/urban interface 
        have significantly changed the way land managers must consider 
        fighting wildfires. Different philosophies and firefighting 
        tactics are required to combat the ever-increasing number of 
        large fires. However, current fire policy to address these 
        changing circumstances has been slow to evolve and this 
        negatively impacts the utilization of aviation resources. 
        Possibly the single largest challenge now facing leaders of 
        these federal agencies is to foster cooperation and 
        collaboration among working-level staffs, contractors, states, 
        and the Congress and Administration to raise the standards of 
        aerial wildland firefighting in the United States.
  <bullet> Aircraft-The FAA has categorized retired military aircraft 
        used for firefighting as ``public use aircraft,'' meaning that 
        there are few checks and balances to ensure these aircraft are 
        safe to fly, beyond obtaining the initial FAA Restricted 
        Category type certificates that are issued once the aircraft 
        are placed into firefighting service. Further, all aircraft in 
        the current airtanker fleet, are being operated outside their 
        original design intent with little or no formal evaluation in 
        the low-level firefighting environment. Together these pose 
        serious safety hazards as underlined by recent in-flight 
        structural failures. Under the current system of aircraft 
        certification, contracting and operation, key elements of the 
        aerial wildland firefighting fleet are unsustainable.
  <bullet> Mission--The variety of missions, philosophies, and unclear 
        standards of federal land management agencies creates a 
        ``mission muddle'' that compromises the safety and 
        effectiveness of aviation in wildland fire management. As a 
        result, aerial firefighting risks remain higher than necessary 
        because the mission differences among agencies have not been 
        recognized, reconciled, and expressed as a common operations 
        plan with clear lines of authority. There is no single body in 
        charge.
  <bullet> Culture, Organizational Structure, and Management--The 
        structure and management of federal wild fire agencies is ill-
        suited to conduct safe and effective fire aviation operations. 
        While the passion and ``can do'' spirit of firefighters is 
        admirable, it has masked agency management, and has contributed 
        to over aggressiveness in piloting large air tankers. Contract 
        specifications do not require necessary knowledge of aircraft 
        condition, training, inspections, and maintenance. This has led 
        to operator's bids that do not adequately provide for these 
        factors and to an unacceptable safety record for large air 
        tankers.
  <bullet> Certification--Because the FAA has abrogated any 
        responsibility to ensure the continued airworthiness of 
        ``public-use'' aircraft, both the FS and BLM have been placed 
        in the untenable position of determining whether an aircraft is 
        safe to fly. Neither the FS nor the BLM are staffed or 
        qualified to make airworthiness assessments. Although these 
        aircraft are FAA certified, the certification processes do not 
        require testing and inspection to assure airworthiness for the 
        new mission. This is unacceptable.
  <bullet> Contracts-Government contracts for air tanker and helicopter 
        fire management services do not adequately recognize business 
        and operational realities or aircraft limitations. This is 
        particularly evident in aviation contracts that do not require 
        a safe operation.
  <bullet> Training--Training is under-funded and inadequately 
        specified for helicopters, large air tankers, and other fixed-
        winged operations. The lack of training in several well-known 
        and effective contemporary aviation management areas has 
        contributed to a stagnant, rather than improved accident rate 
        over time.

    Although the panel was not tasked to provide recommendations, we 
felt it important to identify existing models and strategic 
alternatives that might be useful for government program managers as 
they charted their future.
    The panel thought that the Canadian model was especially 
noteworthy, where the government established specific airworthiness 
standards and then appropriated resources to flight test and evaluate 
each proposed model of airtanker to ensure that it was safe and 
sustainable as a fire fighting aircraft. This resulted in a maintenance 
and inspection program that far surpasses anything we saw with U.S. 
vendors--a program that acknowledges aircraft ``age'' faster when 
operating in the firefighting environment.
    The panel also noted the current model used successfully by the 
California Division of Forestry, where the government owns and controls 
the configuration and inspection of the aircraft, but the private 
sector maintains and operates them during the fire season. Although we 
did not visit the military aerial firefighters, we were briefed on the 
use of Air National Guard assets and their excellent safety record. We 
believe that each of these options should be carefully evaluated as a 
possible solution to the current set of challenges.
    In conclusion, the panel wants to commend the Forest Service and 
BLM for their courage in establishing the Blue Ribbon Panel, but also 
to encourage them to look carefully at the full range of options, 
including the possibility of outsourcing the entire program to a 
separate entity that can specialize in the complexities inherent in a 
large-scale aviation operation. The panel would also encourage 
appropriators to work closely with the administration to assure funding 
for near term modernization of both the airtanker and lead plane fleet, 
and to ensure that the funding remains sufficient to sustain these 
operations in support of the public interests.
    Thank you for allowing us this opportunity to share the panel's 
testimony and we are prepared to answer any questions that you might 
have at this time.

    Senator Craig. Well, on behalf of the subcommittee and the 
full committee, gentlemen, thank you for your work, and I thank 
the clarity of your findings and what you are suggesting.
    Now let me move to Larry Hamilton, BLM Director of Aviation 
at the National Interagency Fire Center in Boise. Larry, 
welcome. Please proceed.

STATEMENT OF LARRY HAMILTON, NATIONAL DIRECTOR, OFFICE OF FIRE 
AND AVIATION, NATIONAL INTERAGENCY FIRE CENTER, BUREAU OF LAND 
MANAGEMENT, ACCOMPANIED BY DR. TONY KERN, ASSISTANT DIRECTOR OF 
                 AVIATION, U.S. FOREST SERVICE

    Mr. Hamilton. Good morning. Mr. Chairman and Senator 
Thomas, we are pleased to be with you this morning to discuss 
the U.S. Forest Service and the Department of the Interior fire 
and aviation program.
    I would also like to thank the Blue Ribbon Panel for their 
outstanding work. They got a lot of work done, covered a lot of 
area in a very short period of time, and this report has been 
very helpful to us in making some changes already this year, 
and I want to talk about a few of those here this morning.
    Also with me today is Dr. Tony Kern. He is the Deputy 
Director of the Forest Service's fire and aviation program and 
he will be here to assist in answering any questions that you 
may have.
    You are very much aware of the kinds of fire seasons we 
have had here, and those were very eloquently described in your 
opening statement. So what I would like to do is move to some 
of the things that we are doing in response to the findings in 
the Blue Ribbon Panel.
    First, the Forest Service and BLM have not renewed 
contracts on nine C-130A and PB4-Y retired military air tankers 
that were determined to pose an unacceptable risk to public and 
firefighter safety. And then we are also requiring that the 
remaining 33 air tankers go through an enhanced inspection 
program prior to returning to firefighting duty.
    Because of these safety concerns, we have also retired 11 
of our 19 existing Beech Baron 58-P lead planes that have 
exceeded the 6,000 hour safe life limit. Within the next couple 
of weeks, we plan to replace up to 10 of these planes with 
newer, more efficient and safer aircraft through long-term 
leasing.
    Secondly, the agencies have prepared mitigation and 
contingency plans as a result of losing some of these aircraft. 
We are planning on increasing the number of single-engine air 
tankers for initial attack and reducing the number of large air 
tankers that we use on large fire suppression activities. BLM 
sponsored an intensive single-engine air tanker pilot training 
academy which is a requirement for all pilots staffing these 
aircraft.
    Third, the Forest Service and BLM, through a contract with 
the Sandia National Laboratories, are also continuing to 
analyze the safety of all of our air tankers and their use in 
aerial firefighting. The lab is analyzing the existing air 
fleet in three phases, focusing first on the Lockheed P-3 
Orion; second, the Douglas DC-4s, -6s, and -7s; and third, the 
Lockheed P2-V Neptune. It is anticipated that P-3 aircraft will 
be available in the near future. As a matter of fact, we have 
two of those aircraft that have been certified at this point 
and are available to us.
    We are also working to increase the use of other aircraft 
and reduce our reliance on retired military planes. For 
example, we are contracting for more Type I heavy helicopters, 
to use them in conjunction with the single-engine air tankers 
for initial attack and extended attack. A combination of these 
efforts will reduce our reliance on large air tankers.
    Finally, one effort that the Forest Service recently 
completed on behalf of all fire management agencies is an 
aviation action plan for 2003. This plan identifies actions to 
be taken to improve our fire management operations. It focuses 
on the four critical areas that have been identified here: 
safety, preparedness, security, and cost containment. It also 
provides direction to assure safety, appropriate staffing, 
management oversight, planning, and training for wildland 
fires.
    I know you are interested in the finding on mission muddle. 
We have done a couple of things in response to that. One is 
that we have written new policy for our national multi-agency 
coordinating group there at NFSI. When we go to preparedness 
level 4 and 5, our aerial assets now will be managed at the 
national level. So we will not have the problem that we have 
had in the past where we have had geographical areas that could 
horde these assets or refuse to make them available in other 
areas.
    The other thing that we have done is we are in the process 
of hiring a project manager. We have a list of candidates. It 
is an outstanding list of candidates, and we have people from 
outside the Federal agencies who have applied for this job. We 
will shortly be making a selection for that position.
    Given the scope of the report, it will take us some time to 
implement all the findings, but I want to assure you we are 
working on that very diligently.
    While early indications are that this fire season could be 
as challenging as last year's and the 2000 fire season, we are 
still continuing to improve safety in our aviation program. We 
hope that the steps described above will meet our needs here 
this fire season.
    This concludes our remarks and we would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Hamilton follows:]

       Prepared Statement of Larry Hamilton, National Director, 
         Office of Fire and Aviation, Bureau of Land Management

    Mr. Chairman and members of the Committee, we are pleased to be 
with you this morning to discuss the United States Department of 
Agriculture's Forest Service (FS) and Department of the Interior's 
Bureau of Land Management (BLM) fire aviation program, and our efforts 
to ensure the safety of our firefighters and our contractors and to 
show what both agencies are doing to be adequately prepared for the 
upcoming fire season. With me today is Dr. Tony Kern, Assistant 
Director, Fire and Aviation Management, USDA Forest Service.

                               BACKGROUND

    The interagency fire aviation program is a large and complex 
program that has been operating aviation assets for natural resource 
purposes since the 1920s. The FS and BLM own, lease, or contract for 
nearly 1,000 aircraft each fire season, with annual expenditures in 
excess of $250 million in recent years. Aviation missions include fire 
retardant and suppressant delivery, reconnaissance, infrared imaging, 
aerial photography, leadplane and air supervision operations, and 
smokejumper delivery. The programs are managed with full interagency 
cooperation by approximately 200 personnel at the national, regional, 
state and local levels.
    The fleet is extremely mobile during the fire season, and often 
operates in a high risk, low altitude environment in and around the 
wildland urban interface. Although they are primarily intended for 
initial attack, aviation assets are often deployed on large fires. The 
decision to deploy aircraft on a fire depends on many factors, 
including safety considerations for firefighters, the likely 
effectiveness of suppression from the air, the stage of fire 
suppression, the condition and terrain of the land, and fire behavior. 
The last several fire seasons, heightened by continued drought and the 
build up of fuels on public lands, have resulted in more intense and 
larger fires. These fires have placed increased demands on aviation 
resources and the interagency aviation program. We face several 
challenges in providing aerial firefighting capability during this fire 
season and into the future.
    Last year proved to be one of the worst fire seasons in the last 
half century, one in which 73,000 fires burned approximately 7.2 
million acres of land. The severity of the 2002 fire season was 
magnified by several fatal aerial firefighting accidents, including the 
crash of one C-130 aircraft, one PB4Y-2, and an Aerospatiale SA 315B 
Lama helicopter. In total, six aircrew members were killed in these 
incidents. In response to these tragedies, the FS and BLM jointly 
established an independent panel called the ``Blue Ribbon Panel'' to 
investigate issues associated with aerial wildland firefighting in the 
United States. The report identifies eight key findings that are 
determined to be essential for planning a safe and effective fire 
aviation program. Mr. Chairman, we look forward to discussing the 
Panel's findings, and ongoing efforts to ensure that both the FS's and 
BLM's fire aviation program is adequately prepared to address wildfires 
in the upcoming fire season and beyond.

                         THE BLUE RIBBON PANEL

    The joint FS and BLM independent Blue Ribbon Panel was tasked with 
identifying weaknesses and ``fail points'' in the current aviation 
program, focusing on safety, operational effectiveness, costs, 
sustainability, and strategic guidance. These four areas were addressed 
as they relate to the various types of firefighting aircraft, including 
the operation and supervision of airtankers, leadplanes and air 
supervision modules, helicopters, and air attack platforms. With input 
from the public via town hall meetings held across the country and 
comments received from other interested parties, including Federal and 
state governments, industry, and other interest groups, the Panel 
developed eight key findings, which it believes are critical for 
planning a safe and effective fire aviation program. These key 
findings, more fully discussed in the chairman's testimony, are in the 
following areas: aircraft safety records; aircraft operations; staff 
training; aircraft certification; contracts; agency missions; culture, 
organizational structure, and management; and changing fire 
environments and new risks. The Panel did not advocate solutions or 
make recommendations, although it identified several strategic 
alternatives and organizational models.

              EFFORTS TO IMPROVE THE FIRE AVIATION PROGRAM

    The Report identified various concerns about aircraft safety, 
including the airworthiness of aircraft that were operating outside of 
their original intended design and the appropriate levels of 
maintenance and training to ensure safe operations. The Report also 
identified a lack of training in contemporary aviation management areas 
that has contributed to an unacceptable accident rate. The FS and BLM 
have already taken several steps to address these issues.
    First, the FS and BLM have not renewed contracts on nine C-130A and 
PB4-Y retired military airtankers that were determined to pose an 
unacceptable risk to public and firefighter safety. We are also 
requiring the remaining 33 airtankers to undergo an enhanced inspection 
program prior to returning to firefighting duty.
    Because of serious safety concerns, we have retired 11 of our 19 
existing Beech Baron 58-P leadplanes that exceeded the 6,000 hour safe 
life limit. Leadplanes are utilized to direct airtanker tactics and 
provide aerial supervision. Within the next couple of weeks, we plan on 
releasing a Request for Proposal to replace up to 10 of these planes 
with newer, more efficient, and safer aircraft through a long-term 
lease. Further risk mitigation steps include reducing the retardant 
load on the airtankers and reducing exposure through direction to the 
field to use the airtankers primarily for initial attack.
    Second, the Agencies have prepared contingency plans to mitigate 
the loss resulting from suspension of certain airtankers. To address 
these shortages, the FS and BLM are planning to increase use of Single 
Engine Airtankers (SEATs) for initial attack and reduce use of 
airtankers for large fire support. The SEATs will be pre-positioned as 
needed to improve initial attack coverage. Airtankers that are 
available for duty will principally be used for initial attack, as 
originally intended, instead of their increasing use as support for 
large fires. Recently, the BLM sponsored an intensive SEAT pilot 
training academy, which is a requirement for all pilots staffing these 
aircraft.
    Third, the FS and BLM, through a contract with the Sandia National 
Laboratories, are also continuing to analyze the safety of all types of 
airtankers for their use in aerial firefighting. The Lab is analyzing 
the existing airfleet in three phases, focusing on: a) the Lockheed P-3 
Orion, b) the Douglas Series (DC-4, DC-6 and DC-7), and c) the Lockheed 
P-2V Neptune.

          a) Lockheed P-3 Orion: The Sandia Labs has forwarded its 
        analysis of the Lockheed P-3 Orion airtankers to the FS, BLM, 
        and the FAA. The FAA has evaluated the report and mission 
        inspections are underway. It is anticipated that P-3 aircraft 
        will be available in the near future;
          b) Douglas Series: Analysis of the Douglas line of aircraft 
        is underway. Because the Douglas aircraft are generally used 
        for commercial purposes, they have a better-documented 
        maintenance history than retired military aircraft. These 
        aircraft are not available for firefighting use until the 
        analysis and required inspections are completed; and
          c) Lockheed P2-V Neptune: The final phase will be the 
        analysis of the Lockheed P2-V Neptune. This analysis is not 
        complete, but we look forward to receiving it. These aircraft 
        are not available for firefighting use until the analysis is 
        completed.

    We are also working to increase the use of other types of aircraft 
to reduce our reliance on retired military planes. For example, the FS 
and BLM are contracting for additional Type I heavy helicopters for 
their use in conjunction with SEATs for initial attack and extended 
attack fires. We are also encouraging the private-sector large-
airtanker industry to propose different airframes for consideration as 
next-generation airtankers. These aircraft can carry anywhere from 
2,000 to over 11,000 gallons of retardant. Some of these aircraft could 
be available as early as 2004. Also, SEAT manufacturers are gearing up 
to provide additional aircraft by the 2004 contract year and future 
years.
    The combination of these efforts will reduce our short-term 
reliance on large airtankers and provide a solution until those large 
airtankers that are qualified can be returned to service. It is our 
intention to closely coordinate with the Sandia National Laboratories 
and solicit the assistance and cooperation of the FAA in determining 
which airtankers can safely be returned to service. We are equally 
committed to partnerships with the private sector in developing newer 
technologies and reducing our dependence on aging, retired military 
aircraft.
    The Forest Service recently completed on behalf of all fire 
management agencies an Aviation Action Plan for 2003. The Plan 
identifies specific actions to be taken to improve fire management 
operations. It focuses on four critical areas--safety, preparedness, 
security, and cost containment--and provides direction to assure 
safety, appropriate staffing, management oversight, planning, and 
training for wildland fires.
    Given the scope of the Blue Ribbon Panel's Report, it will take 
some time to fully address the other identified issues. We will 
continue to strive to improve program efficiency and cost effectiveness 
in all areas of the wildland fire program, including the fire aviation 
program, as directed by the President's proposed FY 2004 budget. In 
particular, we will continue to develop and begin using the new 
interagency fire planning system to optimize cost effectiveness for 
fire readiness resources. Throughout this work, our primary emphasis 
has been and will continue to be the safety of the public as well as 
our firefighters and contractors. Accordingly, our efforts will ensure 
a coordinated approach to developing a safe and effective aerial 
firefighting program in which all firefighting agencies are in 
lockstep.

                               CONCLUSION

    While early indications are that this fire season could be as 
challenging as last year's, the FS and BLM are continuing to improve 
the safety and effectiveness of its fire aviation program. Fire 
aviation continues to play an integral role in combating wildland 
fires. We feel that the steps described above have adequately prepared 
both the FS and BLM to address this year's fires. This concludes our 
remarks. We'll be happy to answer any questions that you may have.

    Senator Craig. Well, Larry, thank you very much.
    Tony, do you have any additional comment?
    Dr. Kern. No, sir. I am basically here to answer some 
questions.
    Senator Craig. Thank you very much.
    We have been joined by Senator Murkowski. She has an 
opening statement. Senator, if you do not mind, could we 
complete this testimony and then we will come to you for your 
opening statement? And then we will go to questions of all who 
are here. Okay?
    Senator Murkowski. Fine.
    Senator Craig. Well, thank you very much.
    Let me now then turn to William Broadwell, executive 
director of the Aerial Firefighting Industry Association. Are 
you gentlemen in tandem this morning?
    Mr. Broadwell. No.
    Senator Craig. Separate testimony. All right.
    Mr. Broadwell. Separate testimony.
    Senator Craig. All right. Bill, we will start with you. 
Please proceed.

 STATEMENT OF WILLIAM R. BROADWELL, EXECUTIVE DIRECTOR, AERIAL 
               FIREFIGHTERS INDUSTRY ASSOCIATION

    Mr. Broadwell. Mr. Chairman and members of the 
subcommittee, thank you for the opportunity to participate in 
this hearing.
    My remarks will be very brief. You have my statement for 
the record and it provides the association views on the Blue 
Ribbon Panel report in much more detail, as well as what we are 
doing for this fire season.
    Just by way of introduction, the Aerial Firefighters 
Industry Association consists of nine large fixed-wing air 
tanker companies, two heavy lift helicopter companies, two 
single-engine air tanker companies, and seven sustaining 
members. We provide aerial firefighting services throughout the 
United States, and several of the companies are working in the 
international scene.
    We are largely a large fixed-wing air tanker-focused 
association. Our nine companies represent all but one company 
that contracts for large fixed-wing air tanker contracts with 
the Forest Service. We, by no means, represent though the large 
number of helicopters and single-engine air tanker companies 
that are available to the Forest Service.
    First, let me say that the association members believe the 
Blue Ribbon Panel accomplished a great deal on accurately 
identifying shortfalls in the Nation's aerial firefighting 
program. They had a lot of data to review. They had a short 
time to do it. They had a lot to filter, and we think that they 
got it right for the most part. We believe, as a result of the 
actions that should be taken as a result of their findings, 
that the large air tanker industry will be transformed to a 
much safer, more effective aerial firefighting fleet, 
providing--and I want to emphasize ``providing''--the program 
is properly funded.
    Now, just a few words on where we are in preparation for 
the upcoming season. You were briefed on the fact that we were 
working with the Sandia lab to review the inspection 
procedures. I want to tell you, though, that the air tanker 
companies have been proactive in that area and had started that 
process way back in the late summer or early fall and during 
this winter maintenance period, have broken the aircraft down 
as far as they could to be able to examine all the critical 
members in their aircraft and to conduct sensitive tests on 
those. A lot of those procedures have been validated by the 
Sandia Labs. Some of them need upgrading and they have made 
those recommendations and we will do it.
    We do not look at that process, though, as the end of the 
process. We look at there being a follow-on program which a 
couple of our companies are already investigating, and that is 
to develop a model air worthiness program that will be 
applicable to all future air tankers, either resale or built 
for the mission. That type of process will include full 
examination of the environment in which we fly, damage 
tolerance tests to be able to identify the critical areas 
within the aircraft that need to be monitored. And that will be 
followed by installing a structural monitoring system which 
will constantly monitor the actions of the aircraft, stresses 
and strains it undergoes, so that you can validate your 
inspection program and you can also identify where overstress 
has occurred. You can pull it off the line, do your proper 
inspections, and put it back on the line again.
    While it is too early to tell exactly the full cost of such 
a program, we have been told that you could do the 
instrumentation and do the analysis for about $100,000 per 
aircraft, and then for another $5,000 to $10,000 per year per 
aircraft, to manage the structural monitoring program.
    So, where do we go from here? While we recognize that the 
older aircraft requires higher maintenance costs, we still 
maintain the most cost effective immediate, medium-term 
solution to the modernization process remains the sale and 
conversion of excess military aircraft under the Wildfire 
Suppression Aircraft Transfer Act of 1996. I am not saying we 
propose we get these aircraft and we operate them forever. 
First of all, we have to have this model air-worthiness program 
by which they would be operated by. But we say purchase them 
for a set period of time, given that when you purchase them 
like 10 to 12 years, maybe 15 years depending on how the 
program goes, and then park them, and then get on with it. But 
it will give us time to be able to transition to aircraft that 
are better built for this mission. It is going to take time.
    However, right now we do not see anything that is 
immediately on the horizon that is cost effective for this 
area, and that is why I am proposing that we continue on with 
this excess military aircraft. After all, the United States is 
one of the few countries in this world that has excess aircraft 
paid for by the taxpayers already, and they could get a 
continuing return from these aircraft.
    Now, the Blue Ribbon Panel proposed several within-funding-
constraints solutions that should be investigated by the Forest 
Service. We question whether these options are feasible within 
current funding constraints and their cost effectiveness, and 
we recommend that before any serious consideration be given to 
any of these options that a complete cost analysis and an 
apples-to-apples comparison be conducted with existing 
commercial programs.
    So what do we need to continue on in the future besides 
this model air worthiness program which we are already working 
on? We need a strategic plan from the Federal agencies that 
specifies the aerial firefighting resources required to support 
the agency's wildland firefighting mission. The operators need 
this plan in writing so that they know what to buy for. They 
are not going to put millions of dollars into a program if they 
do not know what needs to be.
    We also need adequately funded contracts that include 
incentives for high standards of maintenance, training, and 
safety, that rewards research, development, and innovation, and 
sets aside some money for future modernization.
    Given the plan and the proper funding, we believe the 
commercial large fixed-wing air tanker industry is fully 
capable of providing safe and effective operations into the 
future.
    Thank you. I am available for any questions, sir.
    [The prepared statement of Mr. Broadwell follows:]

    Prepared Statement of William R. Broadwell, Executive Director, 
                Aerial Firefighting Industry Association

    The Aerial Firefighting Industry Association (AFIA) is a nonprofit 
trade association organized for the purpose of advancing the 
effectiveness and long-term stability of the commercial aerial 
firefighting industry through high maintenance standards and aircraft 
availability, and proactive safety and training programs. Current AFIA 
membership consists of nine large, fixed-wing airtanker companies, two 
heavy lift helitanker companies, two single engine airtanker (SEATS) 
companies, and seven sustaining members. The airtanker/helitanker 
companies provide aerial firefighting support to all regions of the 
United States during the regions' peak fire season through federal and 
state contracts. AFIA is currently a large airtanker focused 
association in that the nine large, fixed-wing airtanker companies 
represent all but one large, fixed-wing airtanker company that 
contracts through the Forest Service for aerial firefighting services.
    We believe the Blue Ribbon Panel accomplished a great deal in 
accurately identifying shortfalls in the nation's aerial firefighting 
program in a relatively short fact finding and analysis time frame. 
They had a significant amount of data to review and filter, and in our 
opinion, they got it right for the most part. However, several of their 
observations warrant comment before discussing actions the large, 
fixed-wing airtanker companies are taking to ensure safe and effective 
operations in the future.
    Current operators are not without engineering support for their 
airtankers. P-3 and P-2 operators are able to obtain product support 
from Lockheed. The operators of Douglas made aircraft have received 
product support from the Douglas (now Boeing) engineers over the years 
and that service continues. For airtankers where OEM product support 
has not been available, the companies have contracted with FAA 
certified structural engineers for their engineering work. With this 
support, and implementation of a more rigorous inspection/repair 
program supported by structural monitoring systems, the large airtanker 
fleet will continue to provide valuable aerial firefighting services in 
the future.
    The statement that contractors do not have a financial incentive 
and are ``not required to ensure their aircraft are safe to fly'' 
ignores the moral responsibility our operators exercise to ensure the 
safety of their aircrews, and the financial losses they experience from 
losing an aircraft. They do not purposely send their crews out in 
unsafe aircraft. What the Blue Ribbon Panel uncovered, however, was 
that existing inspection and repair programs were not adequate for the 
environment in which the airtankers were being flown. The operators, in 
conjunction with the Sandia Laboratories, Airworthiness Division, have 
addressed that shortfall in the short term, and will continue to work 
on a long-term program applicable to all future airtankers, both new 
production and converted resale aircraft.
    Many of the training shortfalls mentioned in the report have been 
the subject of discussion in the biennial aerial firefighting workshops 
held in the past, which have proven to be a valuable exchange of 
information between pilots and the agencies. The National Aerial 
Firefighting Academy has been a great innovation and contributor toward 
coordinated training. Crew resource management has been in the 
curriculum from time to time, but not consistently. The Association has 
been a big supporter of the Academy (all but the new hire pilots have 
attended at least once) and has recommended the addition of a flight 
phase since its inception. The panel has correctly identified the lack 
of incentives or accountability in the contracts process for 
maintaining well-managed training programs. We would welcome the 
opportunity to work with the Forest Service in establishing basic pilot 
training and proficiency requirements and a management system for 
ensuring accountability in the program.
    As recommended in the most current published strategic guidance 
promulgated in the National Study of Large Airtankers to Support 
Initial Attack and Large Fire Suppression, 1995/1996, the Association 
members believe the most cost effective modernization option for large, 
fixed-wing airtanker companies remains the sale and conversion of 
excess military aircraft under the Wildfire Suppression Aircraft 
Transfer Act of 1996 (PL 104-307), and we recommend continued pursuit 
of this goal as an immediate, but medium term (10-12 years), solution 
to the modernization process. Ultimately the companies would like to 
procure aircraft built specifically for the mission. We do not agree 
that acquiring and converting newer, excess military aircraft would 
only perpetuate a cycle that has proven to be unsustainable and 
dangerous, given that a more rigorous inspection/repair program is now 
being implemented. The cycle cited by the Panel occurred without 
adequate means to measure the wear on aircraft engaged in aerial 
firefighting. New procedures will ensure that critical areas of the 
aircraft will be continuously monitored and evaluated with structural 
monitoring systems and their inspection/repair programs adjusted 
accordingly. The United States is one of the few countries in the world 
that has an excess of aircraft sitting in preservation. These aircraft 
are capable of being operated safely as airtankers given they are 
maintained under rigorous inspection/repair programs developed from 
comprehensive damage tolerance assessments.
    The Blue Ribbon Panel identified four ``within funding 
constraints'' options that could be explored to ensure safe, effective 
aerial fighting operations. We question whether these options are cost 
effective and strongly recommend they be thoroughly analyzed and 
compared on an ``apples-to-apples'' basis with existing and future 
planned commercial aerial firefighting programs. Several of these 
options have been proposed in the past with apparent little regard for 
the ultimate taxpayer cost, but more for the emotional impact of the 
moment.
    The large, fixed-wing airtanker companies have been proactive in 
pursuing more rigorous inspection/repair programs, having initiated 
their program review and modification before release of the Blue Ribbon 
Panel Report. As follow-on to the one-time structural inspections 
conducted last summer, the companies began evaluating their current FAA 
approved airtanker inspection programs with the assistance of 
independent non-destructive inspection (NDI) laboratories, structural 
engineering firms and the FAA. The ultimate goal was to ensure all 
critical structural areas were inspected at intervals necessary to 
ensure safety of flight. During the winter maintenance period, the 
aircraft were disassembled to provide access to all the structural 
members and sensitive NDI methods, e.g. x-ray, eddy current and dye 
penetrant, were used to inspect the aircraft structural integrity. 
Repairs were made where required. Following release of the Blue Ribbon 
Panel Report, the Forest Service contracted with the Sandia 
Laboratories, Airworthiness Assurance, to assess each company's 
inspection/repair program to validate and/or modify as necessary to 
ensure the most effective inspection procedures possible were being 
accomplished. We anticipate this process will be completed by April 
15th, and all airtankers that meet the new standards will be on 
contract for the 2003 wildfire season.
    The Sandia review of the large, fixed-wing airtanker companies is 
just the first phase in developing a total inspection/repair program 
that will serve as the model for all airtankers in the future. Several 
of our companies have already started initiating this process on their 
own. The next steps will include an evaluation of the operating 
environment to establish a load spectrum in order to understand the 
loads imposed and the effects of those loads on firefighting aircraft. 
From that analysis a damage tolerance assessment (DTA) will be 
developed that will identify critical stress areas and critical stress 
crack lengths and growth rates. Based upon the DTA, an inspection 
program will be designed that thoroughly addresses structural elements 
of the aircraft. This will ensure the aircraft are inspected properly 
for the operational environment in which they are being operated. 
Coupled with these programs will be a ``Structural Health-Monitoring 
Program'', whereby the aircraft will be properly instrumented to ensure 
events of harsh or unusual usage are quickly identified. The structural 
health-monitoring program will allow a company to identify when an 
overstress event has occurred, remove the aircraft from service, and 
take appropriate inspection/maintenance action. The program will also 
be invaluable in the continual monitoring of existing inspection 
programs and adjusting inspection intervals as appropriate. While exact 
costs for the ``model'' airworthiness program are not available since 
the program development is still in its beginning stages, rough 
estimates for instrumenting an airtanker and conducting a damage 
tolerance assessment are $100K per aircraft, with the cost of managing 
the structural health-monitoring program at $5-10K per aircraft per 
year.
    Key to the successful implementation of the ``model'' airtanker 
airworthiness program will be adequate contract funding. As the Blue 
Ribbon Panel correctly identified, the short-term pursuit of cost 
efficiency by federal agencies responsible for wildland aerial 
firefighting has been reflected in contracts that do not reward value, 
performance and safety. The large, fixed-wing airtanker program has in 
fact been under funded for years, which has led to the present concern 
over its sustainability without a major upgrade of its airworthiness 
program. Some estimates place the under funding at 50-100% of current 
contract funding levels. Implementation of the enhanced inspection/
repair programs, transition to an all turbine-powered fleet, and 
allowances for future modernization will further increase funding 
requirements. In fact, at a briefing with Forest Service aviation 
personnel several weeks ago an aerial firefighting resource plan for 
CY-2008 was outlined that was estimated to cost 300% more than is 
currently budgeted. The exact costs will remain undetermined until the 
Forest Service publishes an official aerial firefighting requirements 
document. The bottom line, however, is that even with the increased 
budget required to properly support a first class large, fixed wing 
airtanker program, we believe that commercial aviation is still the 
most cost effective resource to provide aerial firefighting support. 
The National Study of Large Airtankers to Support Initial Attack and 
Large Fire Suppression determined the benefit-cost ratio of the 1995 
large, fixed wing airtanker fleet was 8.7:1. The study estimated the 
benefit-cost ratio of a fleet of 41 turbine-powered airtankers (20 P-
3A, 10 C-130B, and 11 C-130E aircraft) with 3000-5000 gallon retardant 
capacity to be 6.38:1. The large, fixed-wing airtanker companies have 
in fact supplied effective aerial firefighting support to Federal and 
State agencies for over 40 years. They employ highly trained crews 
whose primary job is to fight wildland fires. They have the best 
delivery equipment available that is certified in accordance with 
strict Federal standards of performance (IAB performance 
specifications), and they are responsive and always available.
    We look forward to participating in the team effort to ``raise the 
standards of aerial firefighting in the United States''. We just need 
the long-range strategic aerial firefighting resource plan and the 
funding required to maintain, train and operate safely and effectively.

    Senator Craig. Well, thank you very much, Mr. Broadwell. We 
appreciate that testimony. We will be back to you with 
questions in a few moments.
    Now let me turn to my colleague from Wyoming for the 
introduction of one of his constituents.
    Senator Thomas. Thank you, Mr. Chairman. We are very 
pleased this morning to have Duane Powers. He is president of 
Hawkins & Powers which is a pioneer in the aerial firefighting 
techniques. They have been in business, I think, for over 40 
years. And I think they are the second largest aerial 
firefighting company in the Nation. They have been very 
involved here and very involved in the safety aspects and so 
on. So, thank you very much for being here, and we appreciate 
hearing your experience and your suggestions.

STATEMENT OF DUANE A. POWERS, DIRECTOR OF OPERATIONS, HAWKINS & 
              POWERS AVIATION, INC., GREYBULL, WY

    Mr. Powers. Thank you, Senator Thomas.
    Mr. Chairman, members of this special subcommittee, I am 
Duane Powers. I am a mechanical engineer and have served 20 
years as a naval aviator. I am an aerial firefighting pilot. 
That describes my occupation in a few words. I deliver air 
drops of fire retardant to slow down the spread or extinguish 
forest and wildland fires.
    I am proud to say that our employees have had a hand in 
saving national parks, Federal forests, grasslands, the Los 
Alamos National Laboratory, and even towns and communities. 
Whether it is a motel, a rail car, a burning pile of massive 
scrap tires, we put them out.
    More formally, I am a co-owner of Hawkins & Powers 
Aviation, a renowned firefighting operation based in Greybull, 
Wyoming.
    My father and his partner began flying and combatting 
forest fires more than 40 years ago. They are pioneers in the 
business and to this day their sons, my son, my daughter 
continue this proud tradition as a third generation family 
business.
    We operate a variety of aircraft, including helicopters and 
a number of aircraft for fire suppression. These are air 
tankers you have heard so much about. Like other contractors, 
many of our aircraft are retired military aircraft, C-130As, 
PB4-Y2 Privateers, P2-V Neptunes. These aircraft have served 
this Government well, but we do not want to fly them long term. 
We are flying these aircraft because that is what the Federal 
agencies could afford.
    Hawkins & Powers has spent millions of dollars and worked 
year after year to try to modernize its fleet to no avail. As 
discussed by the Blue Ribbon Panel, our industry is caught in a 
low-cost paradigm.
    I would be remiss if I did not point out that two of our 
aircraft, the C-130A and the PB4-Y2 Privateer, were involved in 
fatal air tanker crashes during the 2002 fire season. We lost 
wonderful friends, crew members, dedicated employees. Our 
business reputation, our stability, our morale were greatly 
affected.
    As a result we have taken a close and agonizing look at how 
we have maintained our aircraft, trained our crews, and 
operated our business. As a family-owned company responsible 
for more than 150 employees, we have always prided ourselves on 
being morally upright and totally cognizant of our employees' 
safety.
    I can say that we have been rewarded in our introspection. 
The FAA has thoroughly examined our aircraft and our staff and 
gives us exceptional marks. We have reflected with our 
employees on improving the already tight aircraft maintenance 
system and have developed new tougher procedures and internal 
inspections, as Mr. Broadwell has pointed out.
    Over the past 30 years, we have been among the preferred 
aerial firefighting contractors for Federal and State agencies. 
Some of our contracts such as those for the State of Alaska and 
national park continue to this day.
    Our relationships with the Federal firefighting agencies 
have ebbed and flowed over time, with changes in policy, 
politics, Federal management strategy. At times it is difficult 
to know whether the agencies regard us as friends, partners, or 
simply the lowest-cost vendor.
    I am here today to speak directly to the findings of the 
Blue Ribbon Panel and how Hawkins & Powers has reacted to that 
report and its recommendations. We believe the panel did an 
excellent job of identifying the issues, problems, and 
challenges of managing aerial firefighting. We agree with many 
of the eight findings and trust that the decision will form a 
framework of new proactive, progressive philosophy about using 
aerial firefighting resources.
    Key to those relationships with the contracting agencies, 
we believe a new dialogue must be created between Federal 
agencies and the contractors, contractors which have performed 
key firefighting assistance over the years, and this dialogue 
must be grounded in partnership and cooperation.
    Hawkins & Powers believes and agrees with the Blue Ribbon 
Panel that traditionally Federal agencies' contracts had a 
narrow cost focus. Thus, contractors are focused on how safely 
to get the best aircraft and the best crews put to work with 
limited financial support.
    Over the years, more than 100 million acres of valuable 
forest lands have been preserved and saved as a result of air 
tactics. This industry and Hawkins & Powers have served the 
Federal Government and our country well. The taxpayers benefit 
greatly from having private industry participate in the 
Government's firefighting efforts. Hawkins & Powers looks 
forward to an overall greater understanding of the service 
provided by large air tankers and improved utilization and 
support for that service.
    We agree heartily that there needs to be a new approach 
towards providing modernized, well-suited aircraft for this 
type of firefighting. Even though it was not recommended by the 
Blue Ribbon Panel, most of Hawkins & Powers' fleet is now 
grounded. The Forest Service and the BLM stop orders, issued 
after the Blue Ribbon Panel report--we are dismayed by this but 
continue and are committed to finding a solution.
    Time is of the essence, especially for the 2003 fire season 
that forecasts to equal the losses of last year. Planning for 
this year should provide effective, qualified air tankers and 
get them back into the air.
    The plan to use primarily small, single-engine planes, 
helicopters is clearly flawed and questioned by responsible 
wildland fire veterans. It is simply wrong to stop utilizing 
effective firefighting aircraft that are currently available. 
Aircraft such as the Privateer that have in recent months been 
completely inspected, reengineered, and repaired should be 
utilized this summer and throughout the short-term transition 
to newer equipment. Like our industry association, I submit 
that later model aircraft owned and operated by private 
industry should be considered.
    Mr. Chairman, members of the committee, the Blue Ribbon 
Panel has clearly raised expectations about our Nation's 
wildland firefighting policy and how it should be implemented. 
This administration has conceived the Healthy Forests 
Initiative to focus attention on preservation of these 
resources. As an air tanker pilot and contractor, I have been 
able to see the damage that wildfire can do and I have been 
proud to have saved valuable forests and public lands. I would 
just be proud to be part of the new solution.
    Thank you for the opportunity to share my thoughts with the 
committee. I would be pleased to respond.
    [The prepared statement of Mr. Powers follows:]

    Prepared Statement of Duane A. Powers, Director of Operations, 
             Hawkins & Powers Aviation, Inc., Greybull, WY

    Thank you Mr. Chairman and Members of the Committee for the 
opportunity to appear as a witness in front of this Subcommittee and 
share Hawkins & Powers Aviation's perspective on the issues uncovered 
as a result of the Blue Ribbon Panel Report on Aerial Firefighting and 
the agencies response to that report.
    I am Duane Powers, a co-owner and Director of Fixed Wing Operations 
at Hawkins & Powers Aviation, Inc., which is a private contractor that 
provides large airtanker and helicopter aerial firefighting services to 
federal and state agencies. My background in aviation includes a degree 
in mechanical engineering, serving in the Navy for 20 years on active 
duty and the reserves as a Naval Aviator and 3,000 hours experience 
flying aerial firefighting aircraft for Hawkins & Powers Aviation, Inc.
    Hawkins & Powers Aviation, Inc. (H&P) is one of the most 
experienced firefighting companies in the United States and has been 
operating since 1969. In 2002, the federal government contracted with 
H&P to provide ten of the forty-four large airtankers for use as aerial 
firefighters. H&P is extremely innovative and serves the federal 
government well in consistently striving to improve aerial firefighting 
resources.
    After the tragedies of last year, H&P participated in a public 
hearing held by the Blue Ribbon Panel and provided information to 
assist the Panel in its purpose. Overall, it is Hawkins and Powers 
belief that the Blue Ribbon Panel did an excellent job of discerning 
the problems that plague our industry and its relationship with the 
firefighting agencies.
    While I believe that all eight of the Blue Ribbon Panel's findings 
should be considered, due to the commendable proactive approach by 
airtanker companies in pursuing aggressive inspection and repair 
improvements, many but not all of the conclusions should be implemented 
into future aerial firefighting programs. I would like to take the 
opportunity to discuss those findings that most directly pertain to 
contractors; particularly safety, contract, aircraft, certification and 
training. Initially, it is important to restate that in response to the 
Blue Ribbon Panel the airtanker contractors have taken a proactive 
approach in pursuing aggressive inspection and repair improvements.

                                 SAFETY

    H&P is a small family company that employs approximately 150 people 
and operates out of Greybull, Wyoming. Due to the size of our operation 
and our love for what we do, Hawkins and Powers' management also serves 
as pilots during the fire season.
    The founders, Dan Hawkins and Gene Powers continue to fly, as do 
myself, Dan's son Bob Hawkins and my son, Ryan Powers. This industry is 
a family and we would never sacrifice safety to the detriment of our 
crews and company.
    Safety is what drives our decisions and our continuing effort to 
progress and modernize. As the Blue Ribbon Panel identified, safety has 
a price and the ``Funding for the aerial firefighting program appears 
to be either inadequate or ineffectively distributed.'' (page 5). H&P 
agrees with the Panel's statement that the ``remaining ex-military 
large airtanker fleet is probably at risk of being withdrawn from 
future operation, unless a major investment is made in testing, 
inspection, and maintenance to ensure airworthiness.'' (page 5).
    However, any aircraft that is put into service for the purpose of 
aerial firefighting must receive this level of support, including newer 
versions of ex-military aircraft and newly manufactured multi-role 
aircraft. The industry as a whole needs support from the federal 
government in the costs of testing, inspection and maintenance of the 
existing fleet until the long-term solution is put in place. H&P has 
developed extensive Level 1, 2 and 3 non-destructive inspection (NDI) 
programs and utilizes an FAA certified class 4 repair station for 
inspection and maintenance of its aircraft. In house Level 2 NDI 
certified technicians are in place and receive periodic recurrent 
training.
    The BRP stated that ``nothing in the current airtanker contract 
provides incentives for contractors to operate safely.'' (page vi). 
Beyond any lack of a positive re-enforcement incentive built into the 
contract, H&P and other contractors do have a moral responsibility to 
ensure that their aircraft are safe to fly. Contractors also have a 
financial incentive through safe operations to protect against lawsuits 
and maintain strong relationships with insurance companies. We must 
concur that the cost of safety has a price, and we as an industry have 
never been reluctant to make those investments.
    Naturally, the result is that the customer must be expected to 
share in an increased cost. It is important to point out that the 
aircraft improvements and work done since last year were not 
anticipated in current contracts. Given the findings of the panel, it 
would seem logical that the firefighting agencies will benefit from the 
improved aircraft and should reward this further investment in safety. 
Is this a legal obligation? Perhaps not. We would submit it is 
certainly a moral obligation, for the preservation of our crew members' 
lives, and the federal lands and forests.

                               CONTRACTS

    H&P agrees with the BRP that traditionally the federal agencies' 
contracts had a narrow cost focus that did not reward value, 
performance and safety. Contractors were focused on how to safely get 
the best aircraft and crews put to work with limited financial support. 
As a result, contractors, like H&P, could not transition to newer 
aircraft and needed modernization. Rather, contractors were directed by 
the government, through the contracts, to do the best with what they 
had.
    This industry and H&P have served the federal government and our 
country very well. The taxpayers benefit greatly from having private 
industry participate in the government's firefighting efforts. H&P 
believes that the relationship between private contractors and their 
customer, firefighting agencies, is at a turning point. We must advance 
together to protect the value of our national parks and federal lands. 
We look forward to an overall greater understanding of the service 
provided by large airtankers and improved utilization and support for 
that service.
    As Mr. Broadwell explained, the contractors have been extremely 
proactive in looking at their aircraft and how they can be improved, as 
well as their maintenance and inspection programs. H&P has completely 
dismantled, conducted NDI, re-engineered and improved its PB4Y-2 and P-
2 airtankers. This re-engineering and improvements were made without 
the assurance that any of those substantial repair costs will be 
reimbursed by the firefighting agencies. Consequently, we are 
apparently being asked to provide services this summer under the prior 
level of funding for repair costs.
    Contract modifications must be written that financially support the 
services requested. It is imperative that the agencies continue to 
evaluate the Blue Ribbon Panel's findings and proceed to effectively 
respond. There is an absolute, definite need for a better exchange of 
information to overcome the disconnect found by the Blue Ribbon Panel. 
Better exchanges of information should also be perpetuated between 
federal program management and contracting offices, in particular as it 
relates to the contracts attempt to carry out management objectives 
while inadvertently creating disincentives for modernization, safety, 
industry sustainment and a broader competitive base. An increase in 
communication, both internally and with industry, will improve aerial 
firefighting in the short and long term.
    H&P looks forward to the agencies remedy to the BRP's finding that 
``The agency cannot require its aircraft contractors to ensure a high-
level of safety and quality maintenance, yet provide the associated 
oversight, while also striving to obtain the lowest-price services 
possible.'' (page 30). As this system continues to move forward, 
firefighting agencies should refocus on ways to determine what is 
needed to accomplish the overall objectives of an aerial firefighting 
program, and analyze critical areas that currently may not be 
supported.

                                AIRCRAFT

    In regards to Aircraft, the Panel stated that ``Private Operators, 
for the most part, have done an admirable job of keeping these aging 
aircraft flying.'' (page iii). H&P found that, although not true in all 
aircraft models, the Blue Ribbon Panel was correct regarding the 
C130As, when it stated that contractors ``are handicapped by receiving 
little, if any, support from former military operators and the 
aircraft's original manufacturer.'' (page iii). The firefighting 
agencies must be able to adequately pay for appropriate levels of 
support necessary to field and sustain safe equipment. H&P and the 
industry are moving ahead and making repairs on the current large air 
tanker fleet. The federal government must move forward as well and 
directly provide the funding and support for the existing aircraft over 
the next 3 to 5 years and the future modernization of the aerial 
firefighting fleet.
    Unfortunately, an immediate shortage of firefighting capability is 
created due to a lack of communication and commitment with industry 
regarding funding repairs. Additionally, the necessary transition is 
threatened by ignoring the fact that aircraft, such as DC-4's, are 
being inspected and returned to service, while similar aircraft like 
the PB4Y-2's have been fully inspected, repaired and approved by the 
FAA yet remain grounded.
    It is in this nation's best interest that firefighting agencies be 
able to make decisions with a reasoned and objective approach, rather 
than having to deal with political issues or the glare of media 
scrutiny.
    When the Panel made its findings, those findings applied to the 
entire fleet, not specific aircraft, with one exception. It did 
question the viability of the Beechcraft Baron lead planes. The C130As 
and the PB4Y-2s were not mentioned, yet they have been among the 
grounded aircraft. Nonetheless, we have gone ahead and completed 
engineering modifications on our PB4Y-2s, and those modifications have 
been completed and approved by the FAA.
    I particularly want to address the status of the PB4Y-2 Privateers, 
often a workhorse of aerial fire attack. As you may know, the Forest 
Service has directed us not to fly those aircraft, and has refused to 
contract them for this fire season. We know these aircraft are well-
suited for fire attack, and have significant fire-stopping 
capabilities. We submit that it is not crucial which aircraft you are 
using if you go to the extent of ensuring the airworthiness, as we 
have, then those aircraft should be and can be used in the short-term 
until another resolution to the overall issue is found.
    It is simply wrong to stop fighting fire with proven large fixed 
wing aircraft such as the PB4Y-2 for two to three years until new 
equipment is ready. We all know that it will take a long time to 
develop the right type of aircraft and make the fleet available and 
affordable for private contractors.
    It is a mistake to believe that helicopter water drops, or small 
splashes by single-engine crop-dusters, will have the same 
effectiveness as a full-scale large airtanker drop. While the federal 
agencies' have been actively working to justify the currently reduced 
contracted resources as adequate, responsible wildland fire managers 
know this is not true, and they fear for results generated by this 
policy. The general public knows as well, and persons who choose to 
live in the urban-wildland fire interface zone cannot be comfortable 
with this decision.
    Although we are not discussing the long-term solution today, I 
would echo Mr. Broadwell's comments that industry obtaining and 
outfitting newer military aircraft, such as a later model C-130, should 
be considered and would not perpetuate a cycle that has proven to be 
unsustainable and dangerous for the following reasons: newer model C-
130 aircraft, such as the E and H models, are currently supported by 
the military and the manufacturer. Additionally, newer military 
aircraft have been structurally improved and reinforced aiding in 
durability and performance.
    Further, federal firefighting agencies have recently identified the 
need for newly manufactured, zero-fatigued aerial firefighting aircraft 
that have been designed to perform a multi-role mission, such as 
retardant and smokejumping delivery with real time infrared imagery. 
H&P and Basler Turbo Conversions have worked closely over the past 
three years to design, manufacture and certify in standard category the 
Fire Guardian, a multi-role aerial firefighting aircraft that fully 
meets the mission profiles of retardant delivery, smokejumpers and real 
time infrared coverage. This versatile new aerial firefighting platform 
will be available for in the field evaluation this summer and have the 
benefit of a damage tolerance analysis and structural health monitoring 
program.

                             CERTIFICATION

    In its findings regarding certification, the BRP identified a gap 
between the FAA requirements on operators, the agencies' contractual 
requirements and what could occur if the contractors had sufficient 
financial resources and engineering expertise. H&P has always placed an 
emphasis on outside engineering, specialized NDI and implemented safety 
precautions despite its out of pocket expense. During the past six 
months, the FAA aircraft certification offices have strengthened their 
oversight and support for aerial firefighting aircraft certification. 
This support from the FAA addresses the need for enabling new aerial 
firefighting aircraft development.
    I cannot stress enough that time is of the essence, especially for 
the 2003 summer firefighting season. Additionally, the inability of the 
federal firefighting agencies to deal with the planning for this season 
appears to be shortsighted and punitive toward airtanker operators.

                                TRAINING

    Hawkins and Powers agrees with the Blue Ribbon Panel that 
``training is under funded.'' (page 34). Hawkins and Powers maintains 
one of the most comprehensive training programs in the industry. During 
a recent inspection conducted by a team of Federal Aviation officials, 
it found that ``The skill and knowledge tests required for pilots are 
backed by a comprehensive flight crew training program, which is not 
required by Federal Aviation Regulations (FAR). Further the officials 
were impressed that the training program covers everything from how to 
drop a load on a fire to aircraft performance and that a Crew Resource 
Management (CRM) program was also in place. To H&P's credit, training 
records, also not required, exceeded even FAR Part 135 requirements, 
and that average experience in terms of flight hours is impressive and 
many pilots have been with H&P for years. Overall, the FAA was 
impressed with crew training and qualifications.''
    The level of training that Hawkins and Powers Aviation conducts is 
not fully supported by the contracts and is subsidized through other 
sources of revenue within the company due to the importance and the 
commitment by management.

                               CONCLUSION

    In conclusion, we must agree with the critical finding of the Blue 
Ribbon Panel, ``Possibly the single largest challenge now facing 
leaders of these federal agencies is to foster cooperation and 
collaboration among working-level staffs, contractors, and states to 
raise the standards of aerial wildland firefighting in the United 
States.''
    H&P has risen to the challenge of protecting American communities 
and resources by air, and is prepared to rise to the challenge of 
cooperation and collaboration as well. We look forward to working with 
the agencies with the shared goal of creating the best aerial 
firefighting program in the world.

    Senator Craig. Duane, thank you very much for that 
testimony.
    We have been joined by the ranking member of the 
subcommittee, Senator Ron Wyden of Oregon. Ron, we will turn to 
you in just a moment for any opening comment. Senator Murkowski 
has not made hers, and I suggested we finished the panel first. 
We have just completed their testimony.
    So let me turn to Senator Murkowski. First we will turn to 
you and then we will start the questions. Thank you. Senator, 
please proceed.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and thank you, 
members of the committee.
    It is important to be discussing how we can not only 
improve the safety, the track record of those involved with 
aerial firefighting, but in Alaska we are particularly 
concerned already this year. It is just March. We have already 
had some wildfires. We have not had the winter that the East 
Coast has enjoyed back here. We have a very low snowpack this 
year. It is very, very dry already. We have had some winds, and 
as you know, we have forest fires that consume millions of 
acres in my State.
    We have been afflicted with an infestation of insects, the 
spruce bark beetle, that are killing our trees, our forests, at 
a huge rate and laying fuel on the forest floor that just adds 
to that problem.
    So I have a very keen interest in ensuring that when these 
fires happen, as we know that they will, that we have the 
capability to respond.
    We have had, I think, a pretty successful interagency 
relationship, a cooperation. We fight the wildfires in Alaska 
through a partnership of the Alaska Fire Service and the 
State's Division of Forestry in partnership with the BLM and 
the National Park Service, Fish and Wildlife, and Forest 
Service. The Alaska Fire Service provides fire protection on 
194 million acres in the northern part of the State while the 
Division of Forestry manages fires on 150 million acres in the 
southern part. And then the U.S. Forest Service manages those 
wildfires in the national forests.
    I do not know about you. I have flown over just about every 
part of my State, but looking down, I cannot tell the 
difference between what is the national forest, whose 
jurisdiction this would be up there. So there has to be a 
cooperation. There has to be a sharing, and I understand that 
sharing for the most part works.
    Last year the Alaska Fire Service and its partners flew 
more than 8,000 flight hours without incident. So for us up 
north, that is a good track record. They attribute this safety 
record in large part to an all-eyes aviation safety philosophy 
that ignores these agency boundaries in an effort to identify 
the safety problems and basically put out the fire. That is 
what we want to hear. That is what my constituents want to 
know. We do not care whose jurisdiction it is, whether it is 
the Division of Forestry, the Fire Service, the BLM. We just 
want to know that it is happening.
    As I have indicated, what we want to know is that we have 
got the resources that are available out there. I understand 
that the Alaska Fire Service is expecting to receive its first 
tanker on the 1st of June and a second tanker a week later. And 
we want to make sure that these resources are going to be 
available so that these will be coming on line so that we will 
have the ability to deal with the fires as they come, 
recognizing that one of our greatest assets in Alaska, which is 
our size, is our geography, is also a huge impediment to us. 
You cannot have aircraft that can only go a short range. We 
need to be able to travel hundreds and hundreds of miles in 
order to reach the situation.
    So just a little bit of background as to Alaska's 
situation. I am sure it is not news to you. But I would urge 
the Federal aviation resource managers at the national level to 
work closely with the Alaska Fire Service and the Alaska 
Division of Forestry to address Alaska's needs this summer as 
we anticipate again a really tough year in my State. And as you 
have indicated, several of you on the panel, you expect that on 
the West as well.
    So I appreciate the testimony, and thank you, Mr. Chairman, 
for the opportunity to say a few comments.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    I would like to take this opportunity to thank the Chair for 
convening this important hearing on the safety of the federal aerial 
firefighting fleet. Wildland firefighting in Alaska is conducted by a 
well-coordinated partnership of the Alaska Fire Service and the State 
of Alaska's Division of Forestry. The Alaska Fire Service is itself a 
partnership of the resource management agencies, including the Bureau 
of Land Management, the National Park Service, the Fish and Wildlife 
Service and the Forest Service.
    Under an interagency agreement, the Alaska Fire Service provides 
wildfire protection on 194 million acres in the northern part of our 
state, while the Division of Forestry manages fires on 150 million 
acres in the southern part. The U.S. Forest Service manages fires in 
national forests. However, resources are shared among the agencies and 
interagency incident management teams are deployed to manage the most 
severe fires.
    The State of Alaska and the Alaska Fire Service each contract for 
aviation resources. I am pleased to note that the open lines of 
communication, which are a natural outgrowth of our partnerships, pay 
big dividends for aviation safety in Alaska. Last year, the Alaska Fire 
Service and its partners flew more than 8,000 flight hours without 
incident. They attribute their stellar safety record in large part to 
an ``All Eyes Aviation Safety Philosophy'' that ignores agency 
boundaries in an effort to identify safety problems.
    The idea is simply to maximize the number of eyes looking for 
possible problems and to report them immediately to appropriate 
authorities. The goal is to recognize and correct problems before they 
become links in an accident chain, through respectful and courteous 
communication. I would like to commend the Alaska Fire Service, the 
State Division of Forestry, and their partners for this progressive 
approach to safety issues.
    While the ``All Eyes Safety Philosophy'' has proven to be effective 
in managing the human factors that contribute to accidents, it is no 
less essential that our wildland fire aviators have access to safe 
equipment and that the standard operating procedures under which they 
operate promote safety. I look forward to hearing from our expert panel 
on how we can improve in these areas.
    Mr. Chairman, we don't have much time to resolve the issues that we 
are discussing today. Southcentral Alaska, which includes the Anchorage 
Bowl and the Kenai Peninsula, is presently in a low moisture situation. 
This is also the part of our state with the greatest population 
density.
    Other areas in the State may be more vulnerable this year due to 
the light snow pack. The spruce bark beetle has drastically changed 
some forests in my State. Trees infested by the beetle are especially 
vulnerable to fire. Many of these areas are not accessible by road.
    The State of Alaska is expecting an early fire season and has been 
talking about bringing on one of their air tankers in mid-April. The 
Alaska Fire Service would expect to receive its first tanker on June 1 
and a second tanker a week later. They are wondering whether it is 
reasonable to expect to have these resources in time for the coming 
fire season.
    If there are not sufficient federal aviation resources in Alaska, 
the State Division of Forestry will, of necessity, have to fill the 
gap. The potential loss of federal air tankers to Alaska could mean 
that the Alaska Fire Service will need to rely on the State for all of 
its retardant needs, assuming that those resources are not fully 
deployed in the areas of Alaska that the State is responsible for 
protecting. If state resources are fully deployed, many of our Native 
villages, which are protected by the Alaska Fire Service, could be left 
especially vulnerable.
    I would urge the federal aviation resource managers at the national 
level to work closely with the Alaska Fire Service and the Alaska 
Division of Forestry to address Alaska's needs for this summer. If we 
don't come to some decisions soon, perhaps we will win the battle for 
aviation safety, but lose the war against wildland fires in Alaska. 
That too would be a tragedy.
    I thank the Chair and the panel and look forward to an informative 
hearing.

    Senator Craig. Senator Murkowski, thank you very much. Now 
let me turn to my colleague, Senator Ron Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman, and I want to 
commend you, Mr. Chairman, for holding this hearing. I think it 
is another important initiative that you have taken on. And I 
think you know how strongly I feel about working cooperatively 
with you, whether it was county payments last week, some 
Senator victory in terms of getting the additional $500 million 
for firefighting. And we know, as Senator Murkowski has 
correctly said, that this is going to be another brutal summer 
in the West. I am absolutely convinced we are going to have 
infernos all over the West, and I agree very much with what 
Senator Murkowski has said and what you have said, Mr. 
Chairman. I look forward to working with you.
    I also want to commend the administration. Mr. Kern and Mr. 
Hamilton are here. I thank what the Chief and Director Clark 
are doing in terms of the Blue Ribbon Panel. It is a statement 
that the administration recognizes the seriousness of the 
problem and that is very important. It really, just looking at 
the report, shows that we have seen that there has been a lack 
of oversight, and now what we have got to do is get beyond sort 
of the blame game and the finger-pointing and work in a 
bipartisan way to address the safety and service questions for 
the future.
    There is no doubt in my mind that aerial firefighting is 
one of the most effective methods of initial response to 
wildfire events. But there is trouble. You look, for example, 
at what we saw with the Biscuit Fire in Oregon. Repeated 
appeals for air tankers were denied due to the lack of 
available assets, and the Biscuit Fire grew into Oregon's 
largest in history. And then we had the well-publicized crashes 
last summer as well, which indicates we have got a challenge 
here, and we are going to work in a bipartisan way to do it.
    The only other point that I wanted to mention, Mr. 
Chairman, for you and our colleagues, Senator Thomas and 
Senator Murkowski, I am very interested in introducing shortly 
legislation to amend the Public Safety Officers Benefit Act so 
that we could provide death in the line of duty benefits to the 
survivors of those federally contracted air tanker crews who 
risk their lives on public lands and to protect the property of 
our citizens. I think our staffs have already begun some 
discussion about that, and I just want to reiterate my desire 
to work with you, Chairman Craig, Senator Thomas, Senator 
Murkowski. There is nothing partisan about something like this, 
and obviously, for colleagues who are interested, we are open 
to making changes and suggestions. And for colleagues in the 
administration, we are anxious to work with you all on it.
    Thank you for the chance to make the statement, Mr. 
Chairman.
    Senator Craig. Well, Ron, thank you very much. I too enjoy 
our cooperative working relationship and we hope here we can 
accomplish a great deal and improve the situation that is now 
before us.
    Let me start. We will do 5-minute rounds and move as 
quickly as we can. We have an open window of time here that 
should be adequate enough for us.
    Mr. Hall, given your service as chairman of the National 
Transportation Safety Board and your extensive experience in 
the transportation, safety, and crisis management areas, was 
the failure of the FAA to provide sufficient oversight and the 
failure of the Forest Service and the BLM to understand that no 
oversight was occurring with these public use aircraft 
surprising to you?
    Mr. Hall. No, sir. First, Mr. Chairman, let me point out--
and I think it is important the committee understand--that the 
National Transportation Safety Board is investigating these 
accidents. I spoke with some of the board members and they 
anticipate in about 6 weeks that that report and its 
recommendations will be made public. So that will also be 
available for you.
    During my tenure at the NTSB, I had a growing concern about 
the area of public use aircraft. If you remember, Senator 
Craig, Senator Pressler was the one who passed legislation, 
after the unfortunate tragedy that took the life of the 
Governor of South Dakota in an accident, for the NTSB to begin 
investigating and looking at public use aircraft.
    As you know, the military is structured with its own safety 
program and safety centers. The Air Force, the Navy, the Army 
all have their own safety centers and work very hard at safety, 
and we could just look at the combat situation now in Iraq and 
see how important that is.
    As well as the FAA in commercial aircraft. But the whole 
area of commercial use, government-owned/government-operated or 
government-owned/government-contracted aircraft has been an 
area that the FAA has essentially taken hands off because they 
do not feel they have the responsibility and the authority in 
that area and do not have the funding to adequately do their 
job. So it did not surprise me to see an absence of oversight 
or certification.
    I think the Forest Service and the BLM are put in a very 
difficult position, as the report points out, of being both the 
contractor and the regulator of this system.
    Senator Craig. Do you know of any other public agencies 
that might be utilizing the public use aircraft for other 
purposes that might suffer the same problem of no oversight?
    Mr. Hall. Well, of course, this goes throughout the 
Government use area. Of course, the Coast Guard has a very 
large fleet, the Customs Service. There are other large 
aviation fleets, but a lot of the coordination is left to the 
General Services Administration, and it has been my opinion 
that very little has really been done in trying to set 
standards of regulation and oversight over public use aircraft. 
It really varies on the level of funding from one agency to 
another in how effectively the safety issue is addressed.
    Senator Craig. Well, given what you know of the steps the 
Forest Service and the BLM are now taking in response to your 
report, are they making the progress that you would have hoped 
they would be addressing in the issue that the panel surfaced?
    Mr. Hall. Well, Mr. Chairman, this morning is the first 
time really we have heard, unfortunately--not unfortunately, 
but our responsibilities ended in December. I have not been in 
a position of tracking this.
    Senator Craig. The report was your charge.
    Mr. Hall. Yes, sir.
    However, it would appear to me that the most important 
thing, as Senator Murkowski pointed out, is regardless of how 
many agencies might be involved, you have one aircraft. The 
certification of that aircraft, the operational and safety 
standards for that aircraft, and the oversight of that aircraft 
operation, if you are going to have a good aviation safety 
program, needs to be consistent, and we do not need to have, as 
we pointed out with mission and with safety, a muddle as a 
result of all the different organizations being involved.
    Senator Craig. Let me ask my last question of this round, 
and let me ask it of you, Mr. Hull. The Blue Ribbon Panel 
report indicates that this is the end of the third cycle of 
similar accidents with ex-military aircraft. It is clear from 
much of the information that you cited in the report that the 
Forest Service and the BLM and NASA have all studied these air-
worthiness issues in the past. In all of the information in the 
old reports that the Blue Ribbon Panel studied, was there any 
indication that the FAA, the Forest Service, and the BLM's 
disconnect on air worthiness had been identified in the past?
    Mr. Hull. Certainly as we looked at past information, and 
the third cycle that you are referring to whereby military 
aircraft would be acquired, they would be used for a while, 
then various types of accidents would occur, and then we would 
start the cycle over again with a new set of planes. And we are 
reaching that point again now. There have been reports in the 
past, but like so many reports, studies, and so forth, we did 
find, I believe, that the lessons of some of the studies of the 
past simply had not been pursued to the degree that we are 
seeing with this one.
    I think the report that has come out now is evidence of a 
wake-up call, that the Secretaries of the Interior and 
Agriculture, the Chief of the Forest Service, and BLM 
recognized that something had to be done, and we provided the 
information.
    It is very encouraging that the information that we 
provided as part of this panel is now being used very 
seriously. What I was afraid might happen would be that we 
would see a lot of denial or trying to prove that the findings 
were not accurate. I am not hearing any of that. Everything 
that I am hearing is a positive step, use this as a baseline to 
move forward, and I congratulate each in the role that they are 
playing in this.
    Senator Craig. Thank you. My time is up. Let me turn to 
Senator Thomas.
    Senator Thomas. Thank you.
    Mr. Hamilton, you have reduced the number of planes, 
grounded some planes, not contracted some planes. How do you 
propose to deal with the needs this coming season?
    Mr. Hamilton. Well, there are a couple of things we are 
doing, Senator. As I mentioned earlier, 2 large air tankers 
have been returned to service and we are anticipating another 
12 to 15, and that will be down from the 44 that were available 
last year.
    I also wanted to respond to Senator Murkowski's concern 
about having air tankers in Alaska. That is our number one 
priority in the Bureau of Land Management, Senator, to have 
those two air tankers up there this year.
    Senator Thomas. Why are they returned? What have you done 
differently that causes them to be returned?
    Mr. Hamilton. You mean to Alaska?
    Senator Thomas. No, just totally--4-Ys, for example. You 
have not returned those. Do you have any standards? Has anybody 
said, we have looked at the planes, they are now safe?
    Mr. Hamilton. Okay. You are talking about the C-130s and 
the PB4-Ys.
    Senator Thomas. I am talking about anything that you are 
going to be using now. Are there standards? Has somebody who is 
in authority in the area, like the FAA, certified these 
airplanes?
    Mr. Hamilton. Yes, sir. What we have done is we have 
contracted with Sandia Labs to review these aircraft and they 
are sending their reports to the FAA, and we have been working 
closely with the FAA, the Forest Service, BLM, and the Sandia 
Labs. As I mentioned earlier, two P-3s are returned to service 
and they are looking at these other aircraft, and we hope to 
have this done by June.
    Senator Thomas. I see.
    You mentioned, Mr. Hull or Mr. Hall, that you think there 
is going to be follow-through in terms of the air worthiness 
for public use aircraft. Who is going to do that? How do you 
see that happening? Who is going to certify it and so on? And 
do you have any suggestions?
    Mr. Hall. Senator, I am not aware that anyone is actually 
stepping into that responsibility at the moment. We had 
suggested, obviously, looking at the Canadian model where there 
is a certification process that is based on the environment in 
which these aircraft have to operate, and the Canadian 
government has a certification process in which maintenance and 
operational minimums and standards are established. I believe 
that there continues to be a hole in the whole area of public 
use aircraft and the responsibility for those aircraft.
    The board was clear, Senator, not to get into the issue of 
any particular aircraft operation, but clearly to look at how 
you would go about effectively setting standards regardless of 
what type of aircraft is used.
    Senator Thomas. I am just concerned that it does deal with 
a number of different agencies, and we may end up with the same 
sort of ``that is your thing or your thing,'' and no one 
assuming the responsibility.
    Mr. Powers, I think I have indicated that under the 
contracting arrangement and the payment arrangement, that it is 
very difficult for the private operators to do the kinds of 
safety things that we are talking about. Is that the case?
    Mr. Powers. Yes. It is very difficult. Most of the 
innovations and proposals that have been presented historically 
over the last 10, 15 years are rejected due to issues of cost.
    Senator Thomas. That is interesting.
    How do you propose to deal with that in terms of how you 
pay for these services if they are going to cost more? Are you 
prepared to put them in as a part of the contract, or are you 
still going to say whoever can do this the least expensive way 
gets the contract?
    Mr. Hamilton. With your permission, Senator, I would like 
to have Dr. Tony Kern answer that question.
    Dr. Kern. Thank you.
    I think if I can try to capture where we have been and 
where we are and where we hope to go, obviously we are going to 
function within the constraints of whatever budget we are 
given. But if we assume the same amount of money--I believe 
that Duane is absolutely correct. In the past, what we have 
done is we have a certain pot of money and we have an 
established need, for example, of 41 air tankers, and we have 
then turned the contracting personnel loose, and a negotiation 
process between the Government and the contractors is worked 
until we got 41 air tankers out of that pot of money.
    The way that we intend to move now and, in fact, the way 
that we are working this year--so this has already been 
implemented--is that we have the same pot of money. That has 
not changed, but what we do now is we set certain standards. 
Right now Sandia with the FAA is helping us establish those 
standards. It is just the first phase of higher standards 
because of the time constraints. Instead of dividing the total 
number of required air tankers into it, you divide the 
standards into it, and that is going to give you a number of 
air tankers. That is the same process that we intend to use in 
the future.
    What that will do is likely--certainly raise the standards 
of safety and performance of those aircraft and do exactly what 
Mr. Powers has suggested we need to do. However, the down side 
of that is that the number of aircraft that will be available 
will be reduced. So at that point in time, we will have less 
available firefighting capability unless we look at other 
resources that may be available to do that job. But that is the 
intended process.
    Senator Thomas. Good. Thank you. I guess it would be pretty 
naive to think you could have a safer fleet at the same price, 
would it not?
    Thank you, Mr. Chairman.
    Senator Craig. Senator Murkowski.
    Senator Murkowski. Thank you.
    And just to follow up with that, though, we may now have a 
safer fleet in the air, but you have increased the risk on the 
ground because you may be less able to adequately deal with the 
fire that you are fighting. In certain parts of my State where, 
quite honestly, you do not have any human life around that is 
at risk, but in the State of Idaho, as we saw with the fires 
last year, how do you balance all that? Obviously, it is a 
funding issue ultimately, but I would like to think that at 
some point we are not compromising safety in the air for the 
safety on the ground. It is certainly a Catch-22.
    Dr. Kern. No, you are absolutely correct. I will ask Larry 
to comment on this with me, but I believe that that dynamic is 
ongoing all the time. We, in fact, have recognized that 
potential risk and issued an NWCG, National Wildfire 
Coordination Group, safety alert to the field already this year 
saying, hey, there may be fewer aviation resources available to 
you, especially early on. So brief and train this year for 
those potential consequences.
    I am willing to accept the fact that reduced resources may 
result in some increased acres burned, but I guess I would 
completely reject the fact that that should ever put a human 
being at risk. We ought to be smart enough to be able to 
operate in that environment where we can get people out of 
harm's way. Ideally we want both to happen, but we recognize 
that trade-off. We have pushed the information to the field, 
and then as soon as we can get the resources back up to where 
they really need to be, we ought to be safer all the way 
around.
    But certainly that equation is in play in both directions. 
Last year, following the tragedy in the Thirty Mile burn-over 
up in Washington, many of the ground risks were mitigated by 
having air come in. So it is the same thing in both directions.
    So, a point well taken. I will turn this over to Larry for 
a moment, if I might.
    Mr. Hamilton. I guess I would add a couple of things to 
that. One is, as a result of the National Fire Plan, we have 
been able to increase our predictive services capability. So we 
have fire weather meteorologists located in our geographic 
areas, as well as the National Interagency Fire Center. What 
that enables us to do is, based on predictions they are making, 
put assets in areas where we think we have got ignition 
probability.
    The other thing that we have done is we are replacing our 
capability with single-engine air tankers and more Type I heavy 
helicopters. So we will probably be pretty close to being able 
to deliver the same amount of retardant, as long as we do not 
have a terrific fire season to deal with this year.
    Senator Murkowski. Let me ask you, Mr. Hamilton. You had 
indicated that the two air tankers would be returned to Alaska. 
So am I correct in assuming that what we anticipate to be 
delivered on, I guess it was, the 1st of June and then a second 
delivery on the 7th or the 8th, are these two tankers that we 
have had previously?
    Mr. Hamilton. Well, it may not be those two tankers. What 
we have to do at this point is see what gets certified and 
released, and then we will sit down with the Forest Service and 
see what is going to work best in Alaska and the lower 48. But 
as I mentioned, Alaska is our number one priority because, as 
you described, it is a different beast to deal with up there 
because of the distances.
    Senator Murkowski. So we can expect that.
    And then just as a last quick question. Apparently the 
State has contracted for two Canadian air tankers. The Fire 
Service has traditionally relied upon the resources contracted 
by the State to supplement our Federal aviation resources. 
These Canadian aircraft have apparently not been carded for 
interagency use, and I am wondering if you are working with the 
State and the Alaska Fire Service to assure that this 
contracted aircraft is going to be available. Are you following 
this?
    Mr. Hamilton. Yes, ma'am, we have solved that problem.
    Senator Murkowski. It has been solved.
    Mr. Hamilton. Yes, ma'am.
    Senator Murkowski. Okay, so we are good with our Canadian 
tankers as well.
    Mr. Hamilton. Yes, ma'am.
    Senator Murkowski. Good. Thank you. Thank you, Mr. 
Chairman.
    Senator Craig. Thank you, Senator.
    Let me do a series of questions to try to break us into 
where we are and where we need to be, and it goes something 
like this. We had X number of aircraft available at the 
beginning of last fire season. We have less aircraft available 
at the beginning of this fire season, with apparently some 
beginning to come online. You have heard Mr. Powers talk about 
much of his fleet being grounded.
    So I guess the questions I would want you all, those of you 
who can respond, to respond to, you know, how many P-3s will be 
available and when? How many Douglas aircraft will be available 
and when? How many P2-Vs will be available and when? And then 
how many single engines does it take to replace one heavy? And 
is that really going to work, or are we really facing a fire 
season in which we are going to be substantially under-planed? 
Larry?
    Mr. Hamilton. One thing that I have here--and I am not sure 
you want me to read down through it, but I would be glad to 
provide it as part of our testimony--and that is where we have 
contracted SEATs in the past and where we have new SEATs 
contracted for this year and where they are located and the 
cost.
    Senator Craig. Why do you not provide that for the record? 
We would like to know that.
    Mr. Hamilton. Okay, I would be glad to do that.
    And then I will have Tony answer the first part of your 
question.
    Dr. Kern. The hard data on that is just not yet available 
because of the Sandia process that is going on. But let me do 
the best I can with it.
    Senator Craig. And add to that comment, is Sandia giving 
you some time line?
    Dr. Kern. Yes, sir.
    The process that we are currently undergoing is part of a 
larger process that spans several years, probably 3 years. The 
first initial effort that we are going through is Sandia is 
doing basically an historical evaluation of the inspection and 
maintenance procedures and looking at the qualifications of the 
vendors. Now, that is not as deep as we would like to go. We 
are not doing any engineering analysis, those sorts of things, 
but we plan to instrument aircraft to get there next year. So 
that process speeds it up considerably.
    We have the P-3 final report that we received a week and a 
half ago, got it to the FAA. They reviewed it. They had some 
comments. We made some adjustments, went back. We have a letter 
from the FAA that basically says, a prudent risk-mitigation 
step. Now, it is important to point out the FAA is not 
approving any maintenance procedures or changing anything. They 
are informally helping us out with this process because of the 
public use aircraft.
    The P-3 inspections then by the contractors to comply with 
the Sandia inspection requirements began last week. We have 
already been out to provide contract inspections on two 
aircraft. One is at Fort Smith, Arkansas. The other is flying 
to Brainerd, Minnesota as we speak. But the rest of the P-3s 
will be inspected as soon as the company that owns them calls 
us to bring them on. So we expect the full number of P-3s--and 
I do not have that number off the top of my head--available 
with the possible exception of one that the FAA came back and 
said we have some concerns about this particular tanker. So 
that will take some more care and feeding on that aircraft.
    We have a draft report on the Douglas 4, 6, and 7s.
    Senator Craig. Let us stay with the P-3s for a second. So 
based on what you had available last fire season and what 
appears will be available this fire season--where is the 
difference?
    Dr. Kern. Probably minus one, and that could get remedied 
anytime in the near future. There were some special concerns 
about a specific aircraft that showed some cracking in an area 
that the Navy had tested to failure in the past. That is the 
kind of thing Sandia brings to the table because they were able 
to pull those pieces of the puzzle together. So all available 
minus one.
    The Douglas products. We have a draft report. We expect the 
final report by the end of this week. The FAA is already 
reviewing the draft report. So they have promised to turn that 
back around within 2 weeks of receipt, which was the day before 
yesterday. So at the conclusion of that review, we expect to 
get another letter from the FAA which will indicate whatever 
their thoughts and concerns are regarding the Sandia report.
    And the same process will take place. The contractors will 
call us. They will say it cost us this much to inspect the 
aircraft. We are ready on tanker 66 and 67, and we will have 
our inspectors out there. I believe we will have Douglas 
aircraft in the air by the middle of April. That is my 
estimate.
    The P2s represent a different challenge.
    Senator Craig. Let us stop there and again, the same 
question. Based on what you know now in that process, how many 
will we be down from from last season into this season?
    Dr. Kern. That is going a little bit out on a limb, but 
having read the draft report, I would say that it is likely 
that all or perhaps maybe one or two short of all will be 
returned to service.
    The P2-Vs represent a little bit different challenge 
because they are operated under multiple restricted type 
certificates, and the maintenance inspection procedures are 
different from company to company, and they are owned by 
multiple companies. So that is a far more difficult estimation 
to make at this point in time.
    We expect that we will have the initial P2-V report around 
the middle of April. April 15 is what Sandia has given us for a 
target date. And then assuming that they come up with the 
findings similar to the P-3 or the Douglas, then that process 
will run similarly, about 2 weeks for the FAA to turn it 
around, and we will have potentially 33 air tankers, which is 
all of the remaining ones available, sometime in early to mid-
May.
    If you would have asked me 3 months ago whether we would 
have gotten there, I would have told you, not a very good 
chance. So I am pretty satisfied with the pace that we are 
proceeding.
    Senator Craig. So the last question, as we deal with P2-Vs, 
we will have the same number?
    Dr. Kern. That, sir, is very hard to project at this point 
in time because it represents a little bit more complex 
challenge for Sandia, and I do not want to speak for them.
    Senator Craig. Mr. Hall.
    Mr. Hall. Mr. Chairman, I think it is very important that 
the committee is aware that the Blue Ribbon Panel report looked 
at the issue not just of safety, but we also addressed 
effectiveness. And in looking at effectiveness and resources, 
we looked at two issues: one, the mission because obviously you 
have to clearly define what the mission is that is to be 
accomplished by the aerial aviation firefighting structure. We 
found that was inconsistent, whether it was to be used for 
initial attack or how the aviation assets were to be used. 
There seemed to be the type of muddle that we had referred to.
    And in regard to resources, the panel said specifically on 
page 22 that we found that large supplemental appropriations, 
typically triggered when fires grow to a certain size, suggest 
that the base funding profile is insufficient to control fires, 
while too much funding is devoted to the control of escaped 
wildfires. So if you go back and look at the total dollars, 
whether it is base funding or supplemental that is being spent, 
I think it was the panel's feeling that if more of the funding 
could be front-loaded and there could be a clear mission, that 
the resources would be better used and the mission better 
accomplished.
    Senator Craig. Larry.
    Mr. Hamilton. Yes. Mr. Hall brings up a really good point, 
and I ran out of time and was not able to cover the one thing 
he just mentioned with mission muddle. Another change that we 
have made this year is we have changed our policy on these 
large air tankers, that they will be used for initial and 
extended attack and not used on these large project fires. So 
the utilization of the aircraft is going to be different this 
year than it has been in the past. So that is a little change 
in our strategy, and that comes right out of the report.
    And then the other issue that Mr. Hall brings up is our 
preparedness funding versus our suppression funding. But as a 
result of not using some of these large air tankers this year, 
without any additional funding, what we have been able to do is 
in the West, 30 SEATs are assigned on exclusive use contracts. 
That is up 18 from 2002. So that means we have got 57 available 
on call when needed, and that is up from 42.
    We also have 20 smoke jumper aircraft, and then we have 
nationally over 500 exclusive use and call-when-needed 
helicopters. So we think we are going to have the capability 
that we need this fire season.
    Senator Craig. Senator Thomas.
    Senator Thomas. We have heard the panel and the agencies 
respond. I would like to hear that contractors visit a little 
bit. For instance, on this inspection and putting back into 
play, you have been concerned I think about the PB4-Ys. What is 
the situation there?
    Mr. Powers. Well, it has been a proactive approach on the 
company's side. The agencies have refused to participate or 
look into the technical merits of the engineering repairs and 
return to service that has been approved by the Federal 
Aviation Administration. So, so far there has been no 
participation or willingness by the agencies to consider that 
aircraft.
    Senator Thomas. How do you respond to that, Mr. Hamilton?
    Mr. Hamilton. I will have Tony respond to it.
    Dr. Kern. There are a couple, I believe, of definitions we 
need to make clear. First of all, the Forest Service has not 
grounded any aircraft. Only the FAA has the authority to ground 
aircraft.
    Senator Thomas. Wait a minute now. You cannot contract, 
though, can you, which effectively grounds them.
    Dr. Kern. It grounds them for Forest Service and 
interagency use. Certainly they could do other contracts with 
States, international and other----
    Senator Thomas. But you have effectively grounded them when 
you say you are not going to contract for them.
    Dr. Kern. For Federal use, that is correct.
    Senator Thomas. So let us be clear about that.
    Dr. Kern. Right. There are other air tankers that fly 
internationally quite often, so I just want to make sure that 
that is clear as well.
    I would, I guess, respond by saying that the discretionary 
contracting decision was made with careful deliberation and not 
in isolation. In fact, we did receive and review the technical 
aspects on the PB4-Y and many on the C-130A as well. The 
Chief's decision was made in consultation with NTSB engineers, 
the FAA, the Blue Ribbon Panel, the internal Aviation Safety 
Manager Council and operations staff, as well as Sandia 
National Labs. So these decisions were not made lightly. So I 
am convinced that we gave all of those considerations fair play 
in this decision.
    Senator Thomas. I guess my question is if you are going to 
look at standards on others, if these standards can be met on 
this aircraft, why would they not be used?
    Dr. Kern. Sure, and I think that is a fair question. 
Unfortunately, we have a tragic history with structural 
failures. My numbers may----
    Senator Thomas. On the 130s.
    Dr. Kern. Well, it goes back much further than that. There 
were B-25s, three C-119s, C-130s, and now a PB4-Y. I believe 
there were actually three each on the B-25s and the C-119s. In 
every case in our past, when we have had an in-flight 
structural failure, it was followed up by corrective actions 
approved by the FAA, put back together with the best intent by 
the contractors, and there was a subsequent structural failure.
    Additionally, I think that part of this decision process 
was made by what resources we had available. We basically had 
that same pot of dollars, and we had to make some 
determinations on where we wanted to go in the future. The 4-Y, 
unfortunately, being the age it is and the low capacity for 
delivery and primarily because of the safety issues, it was 
determined to be an unjustifiable risk to bring that aircraft 
back on contract with the history that we have.
    Senator Thomas. Any comment, either of you?
    Mr. Powers. Well, one comment that I would like to add is 
that we have talked a lot about the inspections and the mandate 
by the fire agencies for industry to inspect their aircraft. 
But most recently the guidance that we have received from the 
contract agencies is that any repairs that are found and made 
to the aircraft to bring them into air-worthiness condition 
will not be paid for by the Government. So we are kind of, from 
an industry point of view, trying to provide equipment on a 
good, high level of safety and air worthiness, but the agency 
is not willing to fund the costs to do that. So the only place 
that that money can come out of is the pocket of the operator/
contractor.
    Mr. Broadwell. Senator, I think your comment is very valid 
in that if we can design an air-worthiness program for our 
aircraft that are currently in the fleet, would that not be 
very applicable to an aircraft like the PB4-Y. I do not have a 
history on either that C-130A or the PB4-Y, but I understand 
the C-130A comes with a lot of baggage, with which I am just 
not totally familiar.
    But the PB4-Y, I was not aware of any such thing, and in 
fact, Gene Powers wrote a very detailed letter to the Chief on 
the history of the PB4-Y. The safety record appeared to be very 
good for that aircraft. There have been incidents with them in 
the past, but not related to any structural problems that I am 
aware of.
    Senator Thomas. I suppose it is oversimplified, but what I 
am really dealing with is if a piece of equipment can be 
certified and qualified and meet standards--we ought to be 
talking about standards----
    Mr. Broadwell. Exactly.
    Senator Thomas [continuing]. And not agency decisions that 
are not necessarily on standards. That is my whole point. Thank 
you.
    Thank you, Mr. Chairman.
    Senator Craig. Let me read something from the report, and 
then Mr. Hall and Mr. Hull, maybe you would wish to respond to 
this. Page 8. They also found that the Forest Service and the 
BLM leaders are not well-versed on aircraft certification 
worthiness.
    Finally, collaboration among the many Federal and State 
agencies associated with firefighting, each with a different 
mission and culture, has created a situation where engaging all 
employees and contractors in a clearly defined task is 
difficult.
    The Federal Aviation Agency has abrogated any--and this is 
the dark print--responsibility to ensure the continued air 
worthiness of public use aircraft, including ex-military 
aircraft converted to firefighting air tankers. Although these 
aircraft are awarded an FAA-type certification--I assume that 
is as they transition out of one service into another--the 
associated certification processes do not require testing and 
inspection to ensure that the aircraft are air worthy to 
perform their intended missions.
    So I guess that also says that while they are certified 
out, they are not certified into the new mission based on, if 
you will, the protocol or the condition of that mission.
    Now, and then FAA says, we do not have money or we do not 
follow the aircraft. And they argue absence of money. Do they 
argue absence of authority? Because they are certifying and 
that certification has a certain attitude about it, if you 
will, by all who see it and all who get it. Please respond to 
that, if you could.
    Mr. Hall. Mr. Chairman, your comments are exactly on 
target. The fact that there is a certification has led 
unfortunately to an impression with many that these particular 
aircraft were certified for the new mission that they are to 
perform in the Forest Service. As you said, what it implies, of 
course, or what the FAA actually does is just accept the old 
military use as certification under a restricted use category 
of service.
    In our meeting with the Federal Aviation Administration--
and let me say at this point, Mr. Chairman, a point that 
Chairman Hull and I should have probably mentioned. We did 
attempt to meet with the Department of Defense, but were 
unsuccessful in doing that.
    But in our meetings with the Federal Aviation 
Administration and with their most able Administrator, I think 
they would basically state that they do not have either the 
funding or the authority in this particular area.
    This again leads me to the concern that I have had that the 
FAA is the aviation and air-worthiness authority for the U.S. 
Government and they have a structure in place where one 
category, public use aircraft, is then given to the General 
Services Administration or the FAA points to GSA as the 
coordinator for this, to me defies common sense. But it is a 
mission that the FAA traditionally has not had.
    I am pleased to see that they are working cooperatively now 
with the Forest Service and the NTSB, but I think the panel 
would recommend a system similar to the Canadian system where 
there is a formal regulatory structure in place where in 
Canada, obviously, to just give you one example, I think, if I 
remember correctly, it was 7 hours for every flight hour over 
the fire in terms of determining the actual operational use of 
the aircraft for maintenance, structural inspections, et 
cetera. So we felt that the Canadian model, if we continued, 
was an excellent model to look at.
    But the present system, I do not think, has been fixed 
based on the testimony I have heard this morning, and it 
certainly is one that needs to be addressed hopefully by this 
committee.
    Senator Craig. Thank you.
    Larry, respond to that, if you will, but respond in this 
context, and let me dress it up a bit for you. I had said 
earlier in reading the report, that the panel found that the 
Forest Service and the BLM leaders are not well-versed on 
aircraft certification and worthiness. Now, of course, we are 
having a third party, Los Alamos, look at it, and they do have 
expertise in that area, and they are establishing a protocol by 
which certain things get done to correct the problems and allow 
these aircraft to go back into service.
    Is that to say then that you assume you have the talent and 
the ability to develop a certification process or an air 
worthiness process after you go through this that continues a 
level of air worthiness for these aircraft you contract? Or 
should there be another authority that oversees you to make 
sure that you are following through on a consistent basis? 
Culture versus talent. Can you respond to that?
    Mr. Hamilton. Yes, sir, Senator, I would be glad to respond 
to that. We certainly endorse the Blue Ribbon Panel's finding. 
We do not want to get into the business of certifying aircraft. 
We feel that is not part of our mission. There are other 
Federal agencies that do have that as their mission, and we 
would welcome the oversight in setting the standards.
    Dr. Kern. May I add a comment to that?
    Senator Craig. Please do, Tony.
    Dr. Kern. In the interim, though, we have no choice.
    Senator Craig. No, I am not arguing that point. I am 
arguing reshaping the system after the fact and working 
forward.
    Dr. Kern. I just wanted to make sure. Right now we have 
accepted the role as regulator and contractor.
    Senator Craig. Duane.
    Mr. Powers. Yes, Mr. Chairman. Our company has had 40 years 
of work with the FAA on certifying aircraft, and what has 
changed since the accidents--our company was thoroughly 
investigated by the FAA, and in the investigation, the FAA 
determined that there were weaknesses within the Federal agency 
in terms of how they determined the mission profile 
compatibility of the aerial firefighting aircraft that were 
taken from military and put into commercial operations.
    That has been beefed up considerably in recent months. Our 
company has been developing a new aerial firefighting aircraft 
platform, and we are working closely with the aircraft 
certification offices in Denver and in Washington, D.C. on 
developing a strategic health-monitoring program. That is a 
series of inspections for the life of the airframe and, also 
before that is developed, determining what the actual loads and 
stresses on that airframe are so that we know exactly what we 
need to be looking at in the future.
    So we do have an opportunity to put aircraft like this into 
service. This particular aircraft is available this summer. 
However, the cost basis of the previous military aircraft run 
$500,000 to $1 million. This new aircraft is going to come in 
somewhere around the $5 million range. However, it is a zero-
fatigue structure, and it has the benefit of the enhanced 
oversight of the FAA's certification process that has changed 
in the last few months.
    Senator Craig. Thank you.
    I am running out of time and I do appreciate you fellows' 
valuable time.
    Mr. Hull, you may want to respond to this after the fact. I 
am going to ask the question of Mr. Hamilton, and it was in 
relation to a comment you had made, Larry, to see if this fits 
the scenario that we may be looking at as relates to single-
engine, smaller aircraft, less capable versus large bomber 
aircraft. You said you will use the heavy craft for initial 
attack. Does this mean your agency will now put more emphasis 
on initial attack and be putting out all fires in wilderness 
and remote areas?
    My point is quite simple. The urban/wildland interface and 
the growth of people presence, and we see the shift to that to 
protect those human structures. And yet, the really big fires 
that really got away last year that destroyed a lot, we let 
them sit for days because we were not into the initial attack 
business. Does the configuration of your aircraft now--what 
does it argue?
    I guess we could step across the line into Canada, and they 
say every fire is a fire, go get it, put it out now. But we 
were not doing that, and we lost millions of acres of valuable 
watershed and habitat as a result of that. It somehow appeared 
to be expendable, and yet it was a matter of resource 
allocation in part.
    Could you respond to that, Larry, and Mr. Hull?
    Mr. Hamilton. Yes, sir. As you describe, there is a major 
dilemma there for us. With the condition that the forests are 
in, we may see a fire get started in a wilderness area and the 
plan is to look at that as a fire use kind of event. Yet, when 
you have the fuels build-up that we do and the drought, we will 
see fires that can cover anywhere from 5, in some cases 19, 
miles in a day. So then you have got a crown fire that is 
coming out of the wilderness area into a wildland/urban 
interface. So that makes us think very hard about initial 
attack.
    I think as you are aware, last year our average was that we 
caught 99 percent of all the fires that were started, and that 
is a real testimonial to our initial attack capability.
    The point I was trying to make earlier is that we have 
referred to mission muddle. I think we had some mission creep 
in the way we were using our large air tankers, and sometimes, 
sir, we refer to that as political retardant when the local 
Congressman or Senator calls and wants to know where that air 
tanker is and there is a television crew out there wanting to 
get some fantastic footage.
    What we have to get back to is that this is the best tool 
we have in our tool box for initial attack. When you get into 
these large project fires--the Biscuit Fire is a good example--
there are water sources all over that and heavy helicopters are 
much more effective when you are into that kind of firefighting 
scenario. So it will be at a national level utilizing this tool 
for initial attack and make sure that it is not being used on 
these larger fires.
    Senator Craig. Mr. Hull.
    Mr. Hull. I really applaud the emphasis that initial attack 
has been given here. You mentioned the Canadian model that if 
essentially there is smoke, go put it out. We have 50 models 
like that here in the United States. That is the role that 
State foresters play in our State agencies. We cannot afford to 
have big fires. So often, as we had utilized in a cooperative 
effort these Federal contracts for large air tankers, 
helicopters, and so forth, we too have found that because these 
valuable resources were being used to create fire lines on the 
large fires, drop water on large fires where it was 
questionable as to whether or not it was really doing a whole 
lot of good, it took those resources away from what we consider 
the absolute most important role here, and that is initial 
attack.
    So any return to that I think is going to go a long way to 
keep fires small in the first place. While there is lots of 
conflict and firefighters have almost been blamed to a certain 
degree for the build-up of fuels because we have done a pretty 
good job through the last decade, but a lot of that good job 
was done because of the commitment to initial attack back 
through the years. And here recently because of this thing 
called managed wildfires or fuel treatment, that sort of gets 
muddled in with initial attack in firefighting, I think it has 
caused some of the problems that we are seeing here and the 
considerable more use of air tankers doing things besides 
initial attack, and thus, the more use, the quicker that these 
old planes are wearing out.
    Senator Craig. Gentlemen, we are about to conclude, but let 
me ask of you is there anything that you would want on the 
record that you have not, by statement, put on the record yet? 
I will give you all that opportunity if you will be reasonably 
brief.
    Mr. Hull. Thank you very much for the opportunity to be 
here.
    I would just sum this up by saying as we crossed the Nation 
numerous times looking at this, we found a tremendous committed 
group of Americans working at all levels of government, the 
private sector, and contractors and everywhere that are 
committed to fixing the problem. And I think there is great 
hope that we can all have in that.
    Senator Craig. Thank you.
    Mr. Hall. I would just like to stress, Mr. Chairman, what I 
view as the responsibility of this subcommittee and your 
counterpart. I think this area needs additional oversight. 
There needs to be additional regulatory authority put in place, 
clear lines of authority drawn so that you know and the 
American people know who is accountable.
    I think one of the things that probably has not been 
addressed this morning to the degree I would like to have seen 
because of the time is the whole contracting issue. If the 
procurement process is not changed so that these contractors 
are given adequate funds to put in place the safety programs 
that are required, I think we will be revisiting this issue 
again.
    Thank you very much.
    Senator Craig. Thank you.
    Mr. Hamilton.
    Mr. Hamilton. Senator, on behalf of all the Federal 
agencies and the National Association of State Foresters that 
serve with us there at the National Interagency Fire Center, we 
want to thank you for your support and I would again like to 
invite you out this fire season and any of your staff.
    Senator Craig. I will be there.
    Mr. Hamilton. So I look forward to seeing you this summer, 
sir.
    Senator Craig. Thank you.
    Dr. Kern. The one area we did not touch on, which I think 
is vitally important that we look into, is the systemic 
collection of data and analysis on how effective our retardant 
and water drops are. It is not air tankers or helicopters that 
assist the ground firefighter, it is water, foam, and 
retardant. And right now we do not have a very good pool of 
data to match the right tool to the right circumstance. So the 
Blue Ribbon Panel pointed that out. It was buried a little bit 
to us, but that one struck me as the real key to the kingdom 
for the future. So we need to push to get that data collection 
analysis process started.
    Senator Craig. Thank you, Mr. Kern.
    Mr. Broadwell.
    Mr. Broadwell. Yes, sir. Tony took the words out of my 
mouth much more eloquently. What we think is needed is for us 
all to know what is required out there to successfully do the 
mission each year. We have talked all around that, but that is 
the other plan that is needed, is what is required so we have 
something to build to.
    Just for a matter of record, we are concentrated on 33 air 
tankers being available. We do have five spares, four of which 
are P2-Vs and one is a DC-7. So there is some flexibility 
regarding commercial assets.
    Senator Craig. Thank you.
    Mr. Powers.
    Mr. Powers. Thank you. I would like to just reaffirm two 
very important comments that Mr. Hall made, the one regarding 
the contract situation. It just absolutely has to change and 
that has to change immediately in terms of how do the contracts 
support and pay for the services that are being asked for and 
actually required and needed.
    The other part of it is that I think there could be some 
shift of funds to do more up front to get our aircraft into 
service and sustain them over a short period of time. Also, as 
I mentioned, there are opportunities for new developed aircraft 
this summer, but again you are taking that step up. We need to 
get some funding to allow that type of equipment to be starting 
to phase in.
    Senator Craig. Thank you. Gentlemen, thank you all very 
much for your time, and certainly the co-chairs for the work 
they have done with this panel and the report. It is an area 
that this hearing will not resolve, but we will build a record 
from which we hope to gain some resolution working obviously 
with the BLM and the Forest Service and the other appropriate 
agencies involved. It is critical that we have, obviously, this 
fleet of aircraft, that they be safe, that they be properly 
certified for the missions at hand, and I think you have all 
touched on all of the right touchstones today from which we 
will move forward. But we thank you all very much.
    The subcommittee will stand adjourned.
    [Whereupon, at 11:47 a.m., the hearing was adjourned.]


</pre></body></html>
